<html>
<title> - INNOVATION TO IMPROVE EQUITY:. EXPLORING HIGH-QUALITY PATHWAYS TO A COLLEGE DEGREE</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                     INNOVATION TO IMPROVE EQUITY:
                         EXPLORING HIGH	QUALITY
                      PATHWAYS TO A COLLEGE DEGREE

=======================================================================

                                HEARING

                               BEFORE THE

                         COMMITTEE ON EDUCATION
                               AND LABOR
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

             HEARING HELD IN WASHINGTON, DC, JUNE 19, 2019

                               __________

                           Serial No. 116-29

                               __________

      Printed for the use of the Committee on Education and Labor

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


           Available via the World Wide Web: www.govinfo.gov
                                   or
              Committee address: https://edlabor.house.gov              
              
                              __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
36-908                       WASHINGTON : 2021                     
          
--------------------------------------------------------------------------------------
              
              
              
                    COMMITTEE ON EDUCATION AND LABOR

             ROBERT C. ``BOBBY'' SCOTT, Virginia, Chairman

Susan A. Davis, California           Virginia Foxx, North Carolina,
Raul M. Grijalva, Arizona            Ranking Member
Joe Courtney, Connecticut            David P. Roe, Tennessee
Marcia L. Fudge, Ohio                Glenn Thompson, Pennsylvania
Gregorio Kilili Camacho Sablan,      Tim Walberg, Michigan
  Northern Mariana Islands           Brett Guthrie, Kentucky
Frederica S. Wilson, Florida         Bradley Byrne, Alabama
Suzanne Bonamici, Oregon             Glenn Grothman, Wisconsin
Mark Takano, California              Elise M. Stefanik, New York
Alma S. Adams, North Carolina        Rick W. Allen, Georgia
Mark DeSaulnier, California          Francis Rooney, Florida
Donald Norcross, New Jersey          Lloyd Smucker, Pennsylvania
Pramila Jayapal, Washington          Jim Banks, Indiana
Joseph D. Morelle, New York          Mark Walker, North Carolina
Susan Wild, Pennsylvania             James Comer, Kentucky
Josh Harder, California              Ben Cline, Virginia
Lucy McBath, Georgia                 Russ Fulcher, Idaho
Kim Schrier, Washington              Van Taylor, Texas
Lauren Underwood, Illinois           Steve Watkins, Kansas
Jahana Hayes, Connecticut            Ron Wright, Texas
Donna E. Shalala, Florida            Daniel Meuser, Pennsylvania
Andy Levin, Michigan*                William R. Timmons, IV, South 
Ilhan Omar, Minnesota                    Carolina
David J. Trone, Maryland             Dusty Johnson, South Dakota
Haley M. Stevens, Michigan
Susie Lee, Nevada
Lori Trahan, Massachusetts
Joaquin Castro, Texas
* Vice-Chair

                   Veronique Pluviose, Staff Director
                 Brandon Renz, Minority Staff Director
                                 ------                                
                           
                           C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on June 19, 2019....................................     1

Statement of Members:
    Scott, Hon. Robert C. ``Bobby'', Chairman, Committee on 
      Education and Labor........................................     1
        Prepared statement of....................................     3
    Foxx, Hon. Virginia, Ranking Member, Committee on Education 
      and Labor..................................................     4
        Prepared statement of....................................     5

Statement of Witnesses:
    Gadkaree, Mr. Sameer, Secretary, Senior Program Officer, 
      Joyce Foundation...........................................    42
        Prepared statement of....................................    44
    LeGrande, Ms. Tomikia, ED.D., Vice Provost for Strategic 
      Enrollment Management, Virginia Commonwealth University....    15
        Prepared statement of....................................    17
    Long, Ms. Charla, J.D., Executive Director, Competency-Based 
      Education Network..........................................    24
        Prepared statement of....................................    26
    Marwick, Ms. Judith, ED.D., Provost, William Rainey Harper 
      College....................................................     7
        Prepared statement of....................................     9

Additional Submissions:
    Lee, Hon. Susie, a Representative in Congress from the State 
      of Nevada:
        Policy Brief: Doubling Graduation Rates in a New State...    95
    Ms. Long:
        Quality Framework for Competency Based Education Program 
          (CBEN)s................................................   107
    McBath, Hon. Lucy, a Representative in Congress from the 
      State of Georgia:
        Turning More Tassels.....................................   141
        Article: 6 Ways to Make Dual Enrollment Programs 
          Equitable..............................................   175
        Panther Retention Grants.................................   177
        Artile: Georgia Perimeter Improves Graduation and 
          Transfer Rates After Merging With Georgia State........   184
        2018 Report Georgia State University Complete College 
          Georgia................................................   192
        Letter dated June 18, 2019 from The Century Foundation...   225
        Findings From the 2018 National Survey of Postsecondary 
          Competency-Based Education (NSPCBE)....................   229
        Article: The Moneyball Solution for Higher Education.....   265
        The Promises and Limits of Online Higher Education.......   276
    Schrier, Hon. Kim, a Representative in Congress from the 
      State of Washington:
        Letter dated June 18, 2019 from the Western Governors 
          Association............................................   318
    Stevens, Hon. Haley M., a Representative in Congress from the 
      State of Michigan:
        Link: A Path From Access to Success......................   345
    Questions submitted for the record by:
        Omar, Hon. Ilhan, a Representative in Congress from the 
          State of Minnesota 

        Guthrie, Hon. Brett, a Representative in Congress from 
          the State of Kentucky 

        Fulcher, Hon. Russ, a Representative in Congress from the 
          State of Idaho 

        Ms. McBath 

    Responses to questions submitted for the record by:
        Mr. Gadkaree.............................................   359
        Ms. LaGrande.............................................   364
        Ms. Long.................................................   371
        Ms. Marwick..............................................   375

 
                     INNOVATION TO IMPROVE EQUITY:.
                    EXPLORING HIGH-QUALITY PATHWAYS
                          TO A COLLEGE DEGREE

                              ----------                              


                        Wednesday, June 19, 2019

                       House of Representatives,

                   Committee on Education and Labor,

                            Washington, D.C.

                              ----------                              

    The subcommittee met, pursuant to call, at 10:36 a.m., in 
Room 2175, Rayburn House Office Building. Hon. Robert C. 
``Bobby'' Scott [chairman of the committee] presiding.
    Present: Representatives Scott, Davis, Courtney, Sablan, 
Wilson, Bonamici, Takano, Adams, DeSaulnier, Norcross, Harder, 
McBath, Schrier, Underwood, Hayes, Shalala, Levin, Trone, 
Stevens, Lee, Trahan, Foxx, Roe, Walberg, Grothman, Stefanik, 
Allen, Smucker, Walker, Cline, Taylor, Watkins, Wright, Meuser, 
Timmons, and Johnson.
    Staff Present: Tylease Alli, Chief Clerk; Emma Eatman, 
Press Assistant; Christian Haines, General Counsel; Stephanie 
Lalle, Deputy Communications Director; Andre Lindsay, Staff 
Assistant; Jaria Martin, Clerk/Assistant to the Staff Director; 
Richard Miller, Director of Labor Policy; Max Moore, Office 
Aid; Jacque Mosely, Director of Education Policy; Katherine 
Valle, Senior Education Policy Advisor; Banyon Vassar, Deputy 
Director of Information Technology; Claire Viall, Professional 
Staff; Taylor Ware, Education Policy Fellow; Joshua Weisz, 
Communications Director; Courtney Butcher, Minority Director of 
Coalitions and Member Services; Cate Dillon, Minority Staff 
Assistant; Bridget Handy, Minority Communications Assistant; 
Amy Raaf Jones, Minority Director of Education and Human 
Resources Policy; Hannah Matesic, Minority Director of 
Operations; Brandon Renz, Minority Staff Director; Alex Ricci, 
Minority Professional Staff Member; Chance Russell, Minority 
Legislative Assistant; and Mandy Schaumburg, Minority Chief 
Counsel and Deputy Director of Education Policy.
    Chairman SCOTT. The Committee on Education and Labor will 
come to order. I want to welcome everyone and note that a 
quorum is present. The committee is meeting today on a 
legislative hearing to hear testimony on innovation to improve 
equity, exploring high quality pathways to a college degree. 
Pursuant to rule 7c, opening statements are limited to the 
Chair and Ranking Member. This allows us to hear from our 
witnesses sooner and provides all members with adequate time to 
ask questions. I now recognize myself to make an opening 
statement.
    Today the committee will hold its fifth and final 
bipartisan hearing on the Higher Education Act to discuss the 
role of innovation in improving student outcome and advancing 
equity. I would like to thank Dr. Foxx and her staff for their 
partnership during this entire process.
    Throughout our hearings, we have established Congress's 
responsibility to restore the intent of the HEA and to provide 
all Americans no matter their background with a quality college 
education that prepares them for the modern workforce. More 
than 95 percent of jobs created since the recession went to 
workers with at least some college education, and we expect 
growing demand for skilled workers to continue for years to 
come.
    Our higher education system must give every student the 
opportunity to be on the right side of this trend but this is 
not the case today. State disinvestment in higher education has 
forced students and families to shoulder more of the cost of 
college. Declining state funding accounts for well over a third 
of the rise in tuition costs since 2008.
    This trend has also left institutions serving our most 
vulnerable students including community colleges, HBCU's, 
tribal colleges and universities to try to do more with less. 
Simultaneously, the Federal investment through student 
financial aid--student Federal investments in student financial 
aid have failed to keep up.
    In 1980 the maximum Pell grant covered 3/4 of the cost of 
attending a public four-year college. Today the maximum Pell 
grant covers less than 30 percent of that cost. Because of the 
rising costs of college, the weakening power of Pell grants, 
too many low-income students either cannot afford to enroll in 
post-secondary education or cannot afford to complete their 
programs. Pell grant recipients - Pell grant recipients are 18 
percent--18 percentage points less likely to graduate than non-
Pell recipients.
    Students of color also suffer disproportionately lower 
graduation rates. White students also complete college degrees 
at more than one and a half times the rate of Black students.
    In short, those who benefit the most from completing 
college are the least likely to do so. To address this trend, 
we need structural reforms in our higher education system that 
not only lower the cost of college but also better serve 
today's diverse students.
    Innovation, backed by rigorous evaluation, plays a key role 
in this reform. Today we will hear about institutions 
pioneering strategies that empower students to access and 
complete college programs that fit their needs.
    Our witnesses, including my fellow Virginian, Tomikia 
LeGrande of Virginia Commonwealth University, will share their 
experiences with new approaches that help achieve the goals of 
quality and equity.
    For example, investing in wraparound supports for students, 
including career counseling, financial assistance and 
employment support has proven to help students complete their 
programs on time. When we identify such successful innovations, 
our role as Federal policy makers is to support and expand 
them.
    A college--in the college and high school programs known as 
dual enrollment help students gain college credit while still 
in high school and can help reduce the cost of college. 
Research shows that these benefits are particularly important 
for underserved students who may be discouraged from enrolling 
from college because they believe they cannot afford to do so 
or do not--just don't see themselves as college students. Yet 
dual enrollment programs continue to be accessible to primarily 
affluent students compared to low incomes students and students 
of color.
    Similarly, we must ensure that programs offering learning 
beyond the traditional classroom provides students with 
flexibility to learn at their own pace. Programs like online 
courses and competency-based education can provide an 
opportunity to drive down the cost of college and accelerate 
learning, but research is clear that these aren't outcomes are 
not evenly experienced by today's students.
    We must be careful to not only promote and expand policies 
that we know, based on evidence, will benefit all students.
    Congress has a responsibility to explore innovative 
strategies that provide more students the support they need to 
complete college and reach their full potential. But as we 
pursue new pathways for students to earn a quality degree, we 
cannot sacrifice our commitment to quality and equity.
    And so, today's hearing will help us balance these 
compelling interests and we want to thank our witnesses for 
being with us today and yield now to the Ranking Member, Dr. 
Foxx, for her opening statement.
    [The information follows:]

    Prepared Statement of Hon. Robert C. ``Bobby'' Scott, Chairman, 
                    Committee on Education and Labor

    Today, the Committee will hold its fifth and final bipartisan 
hearing on the Higher Education Act to discuss the role of innovation 
in improving student outcomes and advancing equity. I would like to 
thank Dr. Foxx and her staff for their partnership during this entire 
process.
    Throughout our hearings, we have established Congress's 
responsibility to restore the intent of the HEA and provide all 
Americans, no matter their background, with a quality college education 
that prepares them for the modern workforce.
    More than 95 percent of jobs created since the recession went to 
workers with at least some college education, and we expect the growing 
demand for skilled workers to continue for years to come.
    Our higher education system must give every student the opportunity 
to be on the right side of this trend. But, this is not the case today.
    State disinvestment in higher education has forced students and 
families to shoulder more of the cost of college. Declining state 
funding accounts for well over a third of the rise in tuition costs 
since 2008. This trend has also left institutions serving our most 
vulnerable students--including community colleges, HBCUs, and Tribal 
Colleges and Universities--to try to do more with less.
    Simultaneously, federal investments in student financial aid have 
failed to keep up. In 1980, the maximum Pell Grant covered three-
quarters of the cost of attendance at a public four-year college. 
Today, the maximum Pell Grant covers less than 30 percent of the cost 
of attendance at public four-year colleges.
    Because of the rising cost of college and weakening power of Pell 
Grants, too many low-income students either cannot afford to enroll in 
postsecondary education or cannot afford to complete their programs. 
Pell Grant recipients are 18 percentage points less likely to graduate 
than non-Pell recipients.
    Students of color also suffer disproportionately lower graduation 
rates. White students also complete college degrees at more one-and-a-
half times the rate of Black students.
    In short, those who benefit the most from completing college are 
the least likely to do so. To address this trend, we need structural 
reforms in our higher education system that not only lower the cost of 
college, but also better serve today's diverse students.
    Innovation, backed by rigorous evaluation, plays a key role in this 
reform. Today, we'll hear about institutions pioneering strategies that 
empower students to access and complete college programs that fit their 
needs. Our
    witnesses, including my fellow Virginian Tomikia LeGrande of 
Virginia Commonwealth University, will share their experiences with new 
approaches that help achieve the goals of quality and equity.
    For example, investing in wraparound support for students - 
including career counseling, financial assistance, and employment 
support - has proven to help students complete their programs on time. 
When we identify such successful innovations, our role as federal 
policymakers is to support and expand them.
    College in high school programs, known as ``dual enrollment,'' help 
students to gain college credit while still in high school and can help 
reduce the cost of a degree. Research shows that these benefits are 
particularly important for underserved students who may be discouraged 
from enrolling in college because they believe they cannot afford it, 
or just don't see themselves as college students. Yet, dual enrollment 
programs continue to be accessible to primarily affluent students 
compared to low-income students and students of color.
    Similarly, we must ensure that programs offering learning beyond 
the traditional classroom provide students with the flexibility to 
learn at their own pace. Programs like online courses and competency-
based education can provide an opportunity to drive down the cost of 
college and accelerate learning, but research is clear that these 
outcomes are not evenly experienced by today's students. We must be 
careful to only promote and expand policies that we know, based on the 
evidence, will benefit all students.
    Congress has a responsibility to explore innovative strategies that 
provide more students the support they need to complete college and 
reach their full potential. But as we pursue new pathways for students 
to earn a quality degree, we cannot sacrifice our commitment to quality 
and equity.
    Today's hearing will help us balance these compelling interests.
    I want to thank the witnesses for being with us today for this 
important discussion. I now yield to the Ranking Member, Dr. Foxx, for 
an opening statement.
    Mrs. FOXX. Thank you very much, Mr. Chairman, and I want to 
thank our panelists for being here with us today.
    For too long we have believed in the stereotype of college 
students as being young, bright-eyed youth, fresh out of high 
school, lounging in their dorms before heading to class in the 
quad.
    While true for some, this traditional image of post-
secondary education is no longer the case for the majority of 
American students. Today, 37 percent of college students are 25 
or older. 49 percent are financially independent from their 
parents and 64 percent are working while taking classes.
    And yet the Federal Government and the higher education 
sector too often continue to cater to an outdated vision of 
post-secondary education. This stubbornness in policy has 
resulted in mountains of debt, low student completion rates, 
dissatisfied employers and a lack of accountability for poorly 
performing institutions.
    The overall national secure completion rate regardless of 
starting institution type and enrollment intensity is just 58.3 
percent. That is unacceptable. The old ways are hurting 
American students and businesses and something needs to be done 
about it.
    We sit on this committee because we agree that it is time 
to broaden our horizons in addressing the needs of all 
students. We have had several hearings already this Congress 
that demonstrate our shared commitment to reform post-secondary 
education. And today, we will hear about some promising 
interventions that provide students more options in pursuing 
post-secondary pathways.
    Options such as dual enrollment, competency based education 
and apprentice style earn and learn programs have proven 
pivotal in propelling many students to success when they may 
have otherwise been ineffectively served by the post-secondary 
education system.
    I forgot my show and tell. Riding to the airport on Monday, 
I was reading weekly newspapers and there is an ad in the paper 
for the community college that I used to be president of and it 
said Mayland Community College invites high school students to 
enroll in the early college program and gain their AA degree at 
the same time they gain their high school diploma. That is the 
kind of thing we are talking about and I was so proud to read 
that. It is just exactly what is happening all over North 
Carolina.
    These promising and innovative initiatives seek to define 
pathways from high school to college and finally to fulfilling 
high paying jobs. Committee Republicans acknowledge that post-
secondary education market place has many strengths but we also 
recognize colleges, universities must step up to produce 
qualified graduates to fill the millions of open jobs available 
in our booming economy.
    Today I hope to hear of several innovative practices that 
bridge the job skills gap linking students to affordable, 
practical pathways that direct them toward lifetime success. In 
order to aid all Americans, these innovations must work in such 
a way as to push for the success of all students including 
minority students and students from low income households.
    Innovation is not and cannot be a loophole that avoids high 
quality. And schools experimenting in delivery models must not 
exacerbate the challenges currently facing the post-secondary 
system today.
    But we also all need to embrace the change that is 
necessary in the post-secondary education system and work to 
support new, high quality paths to continued learning.
    As we strive to work towards reauthorizing HEA, it is 
critical that we don't just rubber stamp an outdated, failing 
policy. Bold reforms are necessary to put the post-secondary 
system on track to meet the needs of students.
    Last Congress, we worked hard to move forward with 
comprehensive HEA reform to unleash innovation and prepare 
students for a dynamic economy. To ensure all Americans have 
the opportunity to prosper, this committee must pledge to 
reimagine antiquated concepts of post-secondary education.
    If we do that, I am confident Congress can support students 
in completing an affordable, post-secondary experience that 
prepares them to enter the workforce with the skills they need 
for lifelong success. Thank you again, Mr. Chairman, I yield 
back.
    [The information follows:]

Prepared Statement of Hon. Virginia Foxx, Ranking Member, Committee on 
                          Education and Labor

    For too long, we've believed in the stereotype of college students 
as being young, bright-eyed youth, fresh out of high school, lounging 
in their dorms before heading to class in the quad. While true for 
some, this traditional image of postsecondary education is no longer 
the case for the majority of American students. Today, 37 percent of 
college students are 25 or older; 49 percent are financially 
independent from their parents; and 64 percent are working while taking 
classes.
    And yet the federal government and the higher education sector too 
often continue to cater to an outdated vision of postsecondary 
education. This stubbornness in policy has resulted in mountains of 
debt, low student completion rates, dissatisfied employers, and a lack 
of accountability for poorly performing institutions. The overall 
national six-year completion rate, regardless of starting institution 
type and enrollment intensity, is just 58.3 percent. That's 
unacceptable The old ways are hurting American students and businesses, 
and something needs to be done about it.
    We sit on this Committee because we agree that it's time to broaden 
our horizons in addressing the needs of all student We've had several 
hearings already this Congress that demonstrate our shared commitment 
to reform postsecondary education, and today we'll hear about some 
promising interventions that provide students more options in pursuing 
postsecondary pathways. Options such as dual enrollment, competency-
based education, and apprenticeship style ear and-learn programs have 
proven pivotal in propelling many students to success when they may 
have otherwise been ineffectively served by the postsecondary education 
system.
    These promising and innovative initiatives seek to define pathways 
from high school to college and finally to fulfulling, high-paying 
jobs. Committee Republicans acknowledge the postsecondary education 
marketplace has many strengths but we also recognize colleges and 
universities must step up to produce qualified graduates to all the 
millions of open jobs available in our booming economy. Today, I hope 
to hear of several innovative practices that bridge the job skills gap, 
linking students to affordable, practical pathways that direct them 
toward lifetime success.
    In order to aid all Americans, these innovations must work in such 
a way as to push for the success of all students, including minority 
students and students from low-income households. Innovation is not and 
cannot be a loophole that avoids high quality, and schools 
experimenting in delivery models must not exacerbate the challenges 
currently facing the postsecondary system today. But we also all need 
to embrace the change that is necessary in the postsecondary education 
system and work to support new, high-quality paths to continued 
learning.
    As we strive to work toward reauthorizing HEA, it's critical that 
we don't just rubber stamp on outdated, failing policy. Bold reforms 
are necessary to put the postsecondary system on track to meet the 
needs of students. Last Congress, we'll worked hard to move forward 
with comprehensive HEA reform, to unleash innovation and prepare 
workers for a dynam economy. To ensure all Americans have the 
opportunity to prosper, this Committee must pledge to reimagine 
antiquate concepts of higher education. If we do that, I am confident 
Congress can support students in completing an affordable postsecondary 
experience that prepares them to enter the workforce with the skills 
they need for lifelong success.
    Chairman SCOTT. Thank you very much and without objection, 
all other members who wish to insert written statements in the 
record may do so by submitting them to the committee clerk 
electronically in Microsoft Word format by 5 p.m. on Tuesday, 
July 2. I will now introduce our witnesses. Dr. Judith Marwick 
is Provost at William Rainey Harper College, a two-year 
institution in Chicago, Illinois. She--her career includes 
teaching and administrative positions at several Illinois 
community colleges.
    Tomikia LeGrande serves as Vice Provost for Strategic 
Enrollment Management at Virginia Commonwealth University where 
she leads, develops and implements strategies that enrich 
college access, affordability and student success. She has over 
15 years of higher education experience focusing on improving 
college access, retention, graduation, and student satisfaction 
rates to institutions with a strong commitment to serving 
underrepresented groups.
    Charla Long is the founding Executive Director of the 
Competency Based Education Network, a national consortium with 
more than 120 institutions of higher education and statewide 
systems seeking to design, develop and scale new models of 
student learning. She has more than 20 years of higher 
education experience in both public and private institutions in 
the United States including the Founding Dean--including as 
Founding Dean of the College of Professional Studies at 
Lipscomb University.
    Mr. Sameer Gadkaree is the Senior Program Officer at the 
Education and Economic Mobility Team at the Joyce Foundation, a 
Chicago based foundation focused on advancing racial equity and 
economic mobility in the Great Lakes region. He leads the 
organizations grant making and higher education and the future 
of work.
    Appreciate all of our witnesses for being here today and 
look forward to your testimony. Let me remind the witnesses we 
have read the written statements and they will appear in full 
in the hearing record.
    Pursuant to committee rule 7d and committee practice, each 
of you is asked to limit your oral testimony to a 5 minute 
summary of your written statement. We remind the witnesses that 
it is illegal to knowingly and willfully make false statements, 
representations, writing, and documents or material fact to 
Congress or otherwise conceal or cover up a material fact.
    And before you begin your testimony, please remember to 
press the button on the microphone in front of you so that it 
will turn on and the members can hear you. As you speak, the 
light in front of you will turn green. After four minutes, the 
yellow signal will come on indicating you have one minute 
remaining. When the light turns red, your 5 minutes have 
expired, and we ask you to wrap up as soon as you can.
    We will let the entire panel make presentations before we 
move to member questions and when answering a question, please 
remember once again to turn your microphone on. I will first 
recognize Dr. Marwick.

  TESTIMONY OF JUDITH MARWICK, ED.D., PROVOST, WILLIAM RAINEY 
                         HARPER COLLEGE

    Ms. MARWICK. Thank you. Chairman Bobby Scott, Ranking 
Member Virginia Foxx, and Members of the committee, thank you 
for the opportunity to testify today about using innovation to 
improve equity in higher education through dual credit 
programs.
    My name is Judy Marwick. In 2010, Harper College engaged in 
a transformational partnership entitled the Northwest 
Educational Consortium for Student Success or NECSS, to ensure 
that every high school student will have the opportunity to 
attend college and be prepared for 21st century careers. NECSS 
is a regional, educational collaborative comprised of Harper 
College and three high school districts totaling 12 public high 
schools to serve 23 communities.
    Together, we created an intergovernmental agreement and a 
statement of goals and objectives, a shared organizational 
design, and specific accountability measures. The goal of the 
partnership is to improve curriculum alignment and early 
college opportunities to increase the percentage of students 
who graduate ready for college and to create pathways that lead 
to post-secondary credentials.
    One of the most significant initiatives of NECSS is called 
the Power of 15,which we developed based on an analysis of 
college data showing that attainment of 15 college credits is a 
tipping point predicting student persistence in completion. The 
Power of 15 was founded on the premise that most high school 
students should be able to graduate from high school having 
earned 15 hours of college credit in combination of AP, dual 
credit and credit by exam.
    Senior year should be a time for students to catch up if 
they are not yet college ready or to speed up and begin college 
level course work while still in high school. Dual credit 
courses compliment and expand early college opportunities for 
students in subjects where AP courses are not available as well 
as help lower remediation rates.
    Additionally, the results speak directly to the 
effectiveness of collaborative partnerships like NECSS. Not 
only do such collaborations promote post-secondary education, 
but dual credit classes empower students to believe they can 
achieve at the college level by already completing such 
courses.
    There were approximately 6500 high school graduates in June 
2018 among the 12 NECSS high schools. While the early college 
attainment rates remain lower for low income and minority 
students, they are increasing across all demographic groups. Of 
the low-income high school students, 19 percent or 335 students 
graduated with at least 15 hours of college credit, up from 13 
percent just two years ago. Among all students, 32 percent are 
graduating with at least 15 hours of college credit.
    Further, when we consider students who receive a C or 
better in at least one dual credit course, the low-income 
students, 928 of them, are attaining this mark at the same 
percentage as all district students. 54 percent.
    Further, as we have developed the Power of 15, and expanded 
dual credit, most dual credit classes are now being taught at 
the high schools during the high school day. This is important 
because it eliminates the need for transportation costs and 
time.
    In 2012, approximately 1100 students were enrolled in a 
dual credit course at Harper College. In 2017, over 6,000 high 
school students took a dual credit college course. 95 percent 
of these students were taught at their local high school during 
the school day.
    While the Power of 15 has achieved significant success, the 
initiative encountered some implementation challenges including 
cost of tuition, data sharing among secondary and post-
secondary districts and credentialing of high school teachers 
to qualify them to teach college courses.
    There are opportunities for Congress to help address some 
of these changes especially as it relates to cost. We recommend 
making Pell grant funding available for qualified high school 
students. We also recommend that college--Congress establish 
grants or incentives for institutions of higher education to--
and school districts to form partnerships such as NECSS, to 
align curriculum, reduce remediation and offer dual credit 
courses.
    Additionally, data sharing is an important component of 
such partnerships to establish the need for alignment and to 
share results.
    We recommend that Congress review FERPA to address 
challenges that deter such collaborative partnerships which 
still protect the privacy of students.
    Thank you to the committee for the opportunity to testify.
    [The statement of Ms. Marwick follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman SCOTT. Thank you. Dr. LeGrande.

    TESTIMONY OF TOMIKIA LEGRANDE, ED.D., VICE PROVOST FOR 
    STRATEGIC ENROLLMENT MANAGEMENT, VIRGINIA COMMONWEALTH 
                           UNIVERSITY

    Ms. LEGRANDE. Good morning, Chairman Scott, Ranking Member 
Foxx, and committee members. I am proud to be with you on 
behalf of Virginia Commonwealth University, an urban public 
research university of 31,000 students which also includes a 
nationally premiere academic health system. Together, we are an 
economic engine with more than $6 billion impact on the 
Commonwealth of Virginia.
    I have spent my career ensuring that colleges and 
universities deliver on their promise to transform student 
lives and enable them to pursue their American dream. I see it 
happen every day. And I have lived it. I am the first person in 
my family to graduate college. My education from three 
outstanding public universities transformed my life and 
inspired me to ensure that every student has that very same 
opportunity. That's what we focus on at VCU.
    All of our students have great potential and capability, 
but they have not all had equal access to power or to 
information with respect to how to succeed in college. This 
means that some students get lost in the academic enterprise 
and must figure it out for themselves. So at VCU we have 
transformed our approaches to meet the needs of our diverse 
student population.
    Our student body looks much like America. 43 percent of our 
students are from minority populations. One third are the first 
in their families to go to college. And 30 percent are Pell 
eligible.
    Over 86 percent of our students are residents of Virginia 
and our commitment to helping students succeed is evident in 
the fact that our Latinx, African American and Pell eligible 
students graduate at nearly the same rate as their peers from 
more privilege.
    We believed that we can completely eliminate this gap by 
the time our current incoming freshman class graduates. 
Something few universities have done.
    But this follows a larger trend at VCU. For all of our 
students, both four- and six-year graduation rates have 
increased by more than 14 percentage points since 2012 and now 
are higher than the National average. More importantly, 17 
percent of our students move up two or more income quintiles 
after they graduate.
    A student born in the bottom quintile of family incomes has 
a 27 percent chance of reaching the very top quintile after 
graduating from VCU.
    It is critical that colleges and universities move beyond 
the simple academic checklists that existed when we were 
students and rethink our approaches putting the needs of our 
students first.
    Through several innovative strategies and tools focused on 
guidance and support, student faculty engagement, and college 
access and affordability we work to meet our students where 
they are.
    Our intrusive advising model proactively guides students 
through a reflection of experiences identifying purpose and 
setting goals as they focus on their educational outcomes. We 
have invested significant resources to lower the student to 
advisor ratio and increased focus on connecting with students 
to ensure their fit in their chosen academic program.
    We also use technology and predictive analytics that allows 
for well-timed advice and guidance to promote timely progress 
to gradation.
    Our definition of student success extends beyond 
graduation. We've implemented Major Maps, a unique tool that 
combines academic and career planning. Students create an 
individualized plan focusing on their goals after graduation 
and work backwards to determine how to succeed through skill 
development such as undergraduate research, internships and 
networking.
    We have also modernized first year courses through 
interdisciplinary community based and inquiry-based learning 
experiences. Our students develop traditional academic skills 
in an environment that fosters connectedness, creativity and 
engagement.
    Our REAL initiative, relevant, experiential, and applied 
learning lets students apply knowledge from the classroom into 
action and service. And students in these high impact 
experiences are more likely to persist and graduate on time. 
So, we are committed to providing a real experience for all of 
our students. That's the VCU promise.
    We know student success begins in many places, so we 
partner with every community college in Virginia through 
guaranteed admissions, articulation agreements, co-enrollment 
options and reverse transfers and we have developed transfer 
maps to connect to over 22 high need programs.
    Lastly, we have prioritized affordability investing more 
than $35 million over the last eight years to build up our 
institutional aid and award completion grants to cover small 
outstanding balances to help students.
    I am grateful to work in this kind of environment and I am 
proud of our record of student success. Thank you for your time 
for listening this morning and I look forward to answering any 
questions.
    [The statement of Ms. LeGrande follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman SCOTT. Thank you. Ms. Long.

TESTIMONY OF CHARLA LONG, J.D., EXECUTIVE DIRECTOR, COMPETENCY-
                    BASED EDUCATION NETWORK

    Ms. LONG. Mr. Chairman, Ranking Member Foxx, and members of 
the committee, thank you for holding this hearing and for 
allowing me to testify about the role competency-based 
education plays in creating high quality pathways to post-
secondary education. We really are serving our Nation's diverse 
learner population.
    While not defined in Federal law, the field often defines 
CBE as being focused on actual start-student learning and the 
application of that learning rather than the time spent in 
class on material.
    Learners, their progress is measured when they demonstrate 
their competence through a system of rigorous assessments 
meaning they much prove they have mastered the knowledge and 
skills necessary for their required program of study.
    Higher education institutions using competencies as the 
currency of learning are able to connect, compare and validate 
learning across multiple contexts and create pathways for 
learners.
    For example, Tracy. She is a 43-year-old daycare worker who 
had completed over 170 professional development hours, yet she 
had not one college credit.
    By focusing on competencies, she enrolled at Hartland 
Community College's program for the child care credential where 
they held their expectations of learning constant but the way 
in which she acquired that learning to be flexible.
    The time it took Tracy to demonstrate the competencies and 
the context from which she learned it was variable. Tracy 
progressed towards her credential at a personalized pace, 
demonstrating mastery of her required competencies.
    She earned 16 hours of credit and 2 industry recognized 
certifications and she did so in an affordable, accessible 
manner that was 25 percent less the cost--was only 25 percent 
of the cost of a traditional offering.
    Tracy is not alone. In my written testimony I share story 
after story of folks that are military personnel, from those 
that are incarcerated, to those that find themselves unemployed 
and unskilled in today's economy.
    Typically, institutions develop their CBE programs with 
common goals in mind such as how do we lower student costs or 
increase quality or the transparency of learning outcomes. Or 
make it faster to completion or increase work force 
preparedness or use desired leverage all the learning a student 
brings.
    We wanted increased access for underserved learners. These 
are some of the reasons that CBE programs exist. The landscape 
has seen tremendous growth in recent years and C-BEN recognizes 
new members each month as they join this sector. However, 
beyond a handful of studies, data on the effectiveness of CBE 
programs is not yet plentiful. Although much of the research is 
limited to small samples and single institution case studies, 
which my written testimony shares, the results achieved by 
individual institutions is quite promising. But looking across 
institutions there is still much to learn.
    With so many new entrants and such rapid expansion 
underway, we believe we need to test, validate, iterate, on the 
outcomes of CBE under an entirely new Federal structure, one 
that's not based on the credit hour. This will enable 
established CBE programs to experiment with new flexibilities 
and for Congress to understand the outcomes while ensuring the 
quality of learning.
    While tempting to fully open up requirements to allow CBE 
to grow, we believe it is still too soon to take that step. We 
must protect students, assure quality learning and safeguard 
tax payer investments. Therefore, we call on Congress to 
authorize a demonstration project for CBE programs in 
particular to create a definition for CBE.
    Under this demonstration projects, colleges should be 
allowed flexibility with Federal financial aid rules to assess 
how a new system would work under a controlled manner that 
protects students and tax payers while ensuring quality.
    Finally, Congress should require the collection and the 
publication of accurate, comprehensive, and robust data to 
support the rigorous assessment of the demonstration project 
success in serving students.
    We hope Congress will take this next step towards 
responsible innovation, so our providers can continue to 
develop promising pathways for students. And if you do that, we 
hope you will leverage our quality framework for CBE programs.
    Thank you again for allowing me this time and to be with 
you today.
    [The statement of Ms. Long follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman SCOTT. Thank you. Mr. Gadkaree.

  TESTIMONY OF SAMEER GADKAREE, SENIOR PROGRAM OFFICER, JOYCE 
                           FOUNDATION

    Mr. GADKAREE. Chairman Scott, Ranking Member Foxx, and 
members of the committee. Thank you for inviting me to testify. 
I lead higher education grant making at the Joyce Foundation. I 
previously led the adult education division for Chicago's 
community colleges.
    The Joyce Foundation seeks to advance racial, equity, and 
economic mobility in the Great Lakes region. The foundation 
gives $50 million annually to public policy nonprofits and have 
assets of $1 billion.
    For decades, the foundation has worked to improve education 
and workforce development programs. Educational attainment is a 
key determinant of an individual's lifetime earnings and of our 
Nation's global economic competitiveness. That's why it's 
troubling that gaps in college attainment are widening by race 
and wealth.
    In 1990, White young students were 13 percentage points 
more likely than Black young adults and 18 points more likely 
than Latinx young adults to have a bachelor's degree or higher. 
Those gaps are wider today. For Black young adults, it is 
worsened to 19 points. For Latinx young adults, it has worsened 
to 24 points.
    Shockingly, students from wealthy families are 48 points 
more likely to hold a bachelors than students from poor 
families. Also, a worsening gap.
    The Joyce Foundation hopes this committee will support 
changes to our college system to close racial and wealth gaps 
in college attainment.
    A good place to begin is community colleges since half of 
first time Black, Latinx, and low-income students start there. 
I have five points to cover today.
    First, well-targeted investments in community colleges can 
yield significant increases in graduates. Currently only 39 
percent of students who start in a community college complete a 
certificate or degree.
    But four randomized control trials tested programs that 
were able to double graduation rates with more intensive 
advising and student supports.
    This evidence led a bipartisan group including two former 
Chairs of the Council of Economic Advisors to recommend a 
direct investment in community colleges which would produce 3.6 
million more young graduates in 2030 and 28 million more older 
graduates.
    Thus, Federal policy makers should provide funding to scale 
community college evidence-based programs.
    Second, investments can connect community college graduates 
to good jobs. Overall, well-paid jobs are shifting to people 
with bachelor's degrees. In the last 25 years the economy added 
18 million well-paid jobs for bachelor's degree graduates, 3 
million for associate's degree graduates and 300,000 for 
certificate holders. We lost 2 million well-paid jobs for high 
school graduates.
    Because that shift worsens economic equality, the Joyce 
Foundation supports employers who hire associate's degrees. The 
associate degree graduates for good jobs.
    In Chicago, Aon, Accenture and other leading employers have 
hired community college graduates. Joyce and others are 
building the public sectors capacity to meet those employer 
needs.
    Federal policy makers could similarly support college's 
capacity. For example, they could build on the learnings from 
the pack effort, the Trade Adjustment Act community college 
career training effort. As the audit of that program suggested, 
better Federal data collection would be required to track 
efficacy.
    Third, states can improve the community college pipeline to 
four-year degrees. Fewer than 20 percent of students who start 
in a community college will earn a bachelor's degree. States 
can improve this pipeline, so we and other philanthropies are 
investing in stronger state policy.
    The racial representativeness of public flagship colleges 
in the Great Lakes region is declining. Enrolling and gradating 
more community college students can address this problem and 
thus Joyce is supporting individual universities efforts to do 
so. Though states and colleges need to lead in this arena, 
Federal policy makers should create stronger incentives for 
colleges especially wealthy colleges to enroll minority and 
low-income students.
    Fourth, increasing employer skill needs may mean that 
community colleges should offer technically-oriented bachelor's 
degrees. 25 states now allow this and allowing community 
colleges to grant work aligned four-year degrees. Though this 
is mainly a state issue, it seemed germaine to today's topic.
    Finally, I want to touch on education technology. Joyce 
funded research to see if technology can increase GED and 
English learner outcomes and got mixed results. Those findings 
add to a mixed research base generally about technology and 
college onramps. Technology alone may not be able to solve our 
completion challenges.
    As this body considers how to improve higher education, I 
hope you will consider programs that meaningfully close race 
and income-based gaps in attainment and build a more equitable 
society for all.
    Thank you again for inviting me to testify. I would be 
happy to answer your questions.
    [The statement of Mr. Gadkaree follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman SCOTT. Thank you. Under Committee Rule 8a, we will 
now question witnesses under the 5-minute rule. And as Chair I 
have decided to go at the end so recognize the Chair of the 
Higher Education Subcommittee who will--oops. Who has switched 
places with the gentlelady from Florida who will be now 
recognized as Secretary Shalala.
    Ms. SHALALA. Thank you very much, Mr. Chairman. I want to 
address the elephant in the room and that is AP courses versus 
dual enrollment courses because it seems to me that there is 
data now that shows that we may be able to move faster with 
dual enrollment courses than we ever were with AP courses.
    Though, for parents they are confused about the two. And 
so, I want to ask you whether you believe that higher education 
as opposed to the College Board, higher education taking over 
the responsibility of offering students courses, high school 
students courses is going to move the needle faster and what 
your experience has been as opposed to the narrower focus of AP 
courses. That is my number one question.
    And number two, what are these dual enrollment courses? Can 
someone take a science course and actually move to upper 
division that has been a challenge? I understand the math 
courses, but what are the mix of courses in which we know that 
a student can move when they go to college to the next level? 
And any of you can answer these questions.
    Ms. MARWICK. Perhaps I'll start. We are offering dual 
credit courses where AP is not available with one exception and 
that's English 101. The reason is in our school districts, 
they--students have the availability of AP courses. And yes, 
they have to pass the test in order to get credit. Universities 
generally accept AP courses readily.
    In Illinois, they also accept the dual credit courses that 
are articulated for transfer. We have something in Illinois 
called the General Education Core Curriculum at the state level 
so all the transfer dual level courses we are offering are in 
that general education--
    Ms. SHALALA. So you have got an articulation agreement that 
allows them to transfer directly?
    Ms. MARWICK. That's correct.
    Ms. SHALALA. Into the Illinois.
    Ms. MARWICK. So we are offering over 40 dual credit 
courses. We are offering them in the arts, in the sciences, we 
are offering biology, we are offering anatomy, we are offering 
English 101, we are offering speech, we are offering several 
math courses just to name a few. And they do transfer.
    On the career side of the house, there is no AP credit for 
our career track college students. And so, I see those courses 
as giving college credit to career students to get a head start 
on their college education and also show them that they can 
complete successfully college courses and by the way, they're 
already halfway there when they graduate.
    Ms. SHALALA. Dr. LeGrande.
    Ms. LEGRANDE. I agree with you. The questions around dual 
enrollment seem to focus on transparency of information for 
students and their parents and consistency of application 
across institutions and then students' preparedness for the 
next set of courses.
    So, a few of the things that we have done in Virginia is 
really working with other institutions to create greater 
transparency. So right now, there is a 30-credit hour 
certificate for General Education where the dual enrollment 
courses are offered. They normally are general education 
courses. But those courses are often times prerequisite to 
courses in the major to upper division courses.
    Secondly, there is also the development of a new 15-credit 
hour passport because it is likely that all students won't be 
able to take 30-credit hours while in high school, so the 15-
credit hour passport will allow a very similar transparency for 
families to understand what courses students are eligible to 
take in the dual enrollment status and--with a--how they will 
transfer to the university and how they fall into the degree 
programs of the students interests.
    I think the next step for the preparedness of the next set 
of courses, I think there is mixed results across the Nation. 
Whether students are prepared for that next set of courses but 
one of the things that we want to do in understanding that a 
majority of our students are coming in with dual credit is to 
make sure that we have those wraparound supports for those 
students.
    And so, in courses where we realize there are already 
barrier courses at the upper division level, we want to make 
sure that we are connecting students with the appropriate 
academic support tutoring, supplemental instructor, instruction 
to make sure that they are leveraging that credit and making it 
work for them so they pass the next course.
    I think one thing I will mention in Virginia that we 
realize we are working toward in furthering this initiative is 
to create a true pipeline for families and their students to 
understand how dual enrollment courses apply to the 
institutions they're interested in attending and to the majors 
that they want to pursue by creating an online portal for them 
to search this information and get that access.
    Ms. SHALALA. Unfortunately, my time has run out, so I can't 
listen to the next to answer the question. Mr. Chairman, I just 
want to make a point that we have put a lot of money into AP 
courses. We need to solve the problem of how to finance--both 
the Federal Government and the State Government need to solve 
the problem on how to finance these dual enrollment courses 
because they may have just as much promise if not more promise. 
Thank you. I yield back.
    Chairman SCOTT. Thank you. Dr. Roe.
    Dr. ROE. Thank you, Mr. Chairman. I also thank all of you 
all for being here today and, Dr. LeGrande I could not agree 
more. I associate my feelings with what you said.
    The best investments I ever made in my life was I have four 
years of undergraduate school and you have friends, 
relationships, basic knowledge and skills that will teach you 
to lifelong learn.
    And, Mr. Gadkaree, I did learn, I noticed in your testimony 
about the soft skills. I have learned at age 15 I did not want 
to be a dishwasher when I washed 350 dishes three times a day 
at a Boy Scout camp. It taught me that.
    Two, in a tobacco patch one hot summer it convinced me that 
organic chemistry was not that hard. So you, that is the skills 
that you learn elsewhere are also extremely valuable.
    I passed a, helped pass a bill with my colleagues called 
the Forever GI Bill which is where you now can use your GI Bill 
the rest of your life when you get out of the military and the 
reason I thought that was important was because technology and 
things are changing so fast, the skills are changing so fast so 
you are going to have to go back and learn other skills. And in 
our State of Tennessee we recognize that one of the biggest 
deterrents to an education for low income people is cost. They 
couldn't afford to go.
    So now you can attend any community college in our State 
for free. You can attend any technical school for free. If you 
make less than 50--if you family makes less than $50,000 a 
year, the University of Tennessee at Knoxville, Chattanooga and 
at Martin if you meet the criteria to go there will make sure 
that they pass the--pass along those last dollars. Once you 
have used your Hope Scholarship which we provide in Tennessee 
we do not want--we understand that economics is a barrier to 
many low income people. It is not in our State. We also have a 
technical school within 50 miles of every person that lives in 
the State and we graduate about 8,000 people. Almost 100 
percent of them get placed in their specific area.
    And one of the criticisms I hear when I talk to employers 
in my State is that we are educating people on things they 
don't need so I think the--Ms. Long, I want you to comment on 
competency based education and then Dr. Marwick, just for you, 
Northeast State Community College which is in my district has 
had success working with high school students to prepare for 
college math.
    In the Northwest Education of Consortium Student Success 
which your college participates in has helped high school 
students prepare for college math. What has been the biggest 
lessons you have learned from the consortium and the work in 
this area because that is where a lot of kids just drop out. 
They can't figure the math out. Start with Dr. Marwick and then 
to Ms. Long.
    Ms. MARWICK. Thank you. Well, being a former math professor 
at college, I saw students misplaced in college level math and 
when we did the research with our school districts at Harper, 
we showed them that about 60 percent of their recent high 
school graduates were needing developmental mathematics. They 
said that can't be true, we are doing a good job.
    But what we found is a lot of students weren't taking 
mathematics senior year and they then tested at developmental 
level when they didn't really need it. So, we worked with the 
high schools and now 98 percent of their students are taking 
math senior year, even though in Illinois only three years of 
math is required.
    And we have said there's three tracks. There is AP calculus 
and pre-calculus, they've always been doing a good job with 
that. There is a general education math course which meets the 
requirements in Illinois and most schools for people who are 
not in STEM fields in their math requirement for college. Take 
it now, don't skip a year. So, we are offering that as dual 
credit when they're seniors.
    For people not ready for college level math, we're giving 
placement tests in the junior year to see. We helped them 
devise an algebra three course which is a deeper dive into 
problem solving and algebraic thinking skills rather than going 
on and given them trigonometry which most of them are not going 
to need.
    We have now have over 80 percent of the students, recent 
high school graduates coming to Harper College, college ready 
in mathematics.
    Dr. ROE. Just a personal step, I get hives when I go in a 
math class. Ms. Long.
    Ms. LONG. Thank you so much my fellow Tennessean. I 
appreciate the question. In a high-quality CBE program, we 
start with asking what is it a person needs to know and be able 
to do if that is the credential.
    In our quality framework one of the eight quality elements 
are your competencies clear, meaningful, measurable and 
integrated and what we mean by that is are we putting students, 
are we preparing students with the right kind of competencies?
    So, look at what is it that's needed today, how do we 
design a program to ensure that is the knowledge that they're 
going to have when they leave that they can demonstrate that 
knowledge and they'll be workforce ready when they exit the 
program.
    Dr. ROE. Thank you all, you are just a great panel and I 
yield back.
    Chairman SCOTT. Thank you. The gentleman from the Northern 
Mariana Islands, Mr. Sablan.
    Mr. SABLAN. Thank you very much, Mr. Chairman. Good morning 
everyone. One challenge that we often hear about is the 
misalignment of high school graduation requirements and college 
entrance requirements.
    It is concerning that a student can gradate from a public 
high school and arrive at a college, public college in that 
same state only to be told that they need to take remedial 
coursework before entering a credit bearing program. We hear 
that this morning from some of you.
    Dr. Marwick, I understand that Harper College has made 
intentional efforts to bring the K12 and post-secondary systems 
into better alignment. Can you tell us about what motivated 
this and what results you have seen from them?
    Ms. MARWICK. Yes. We, 10 years ago our college president 
reached out to the high school superintendents and we 
determined that these are all our students. Our high schools 
are very good high schools and the teachers are preparing 
students for high school graduation by offering dual credit in 
the high schools, the teachers in the high schools are now 
preparing their high school students for college level courses.
    They didn't know that not taking math senior year was a 
real problem when students took placement tests at any college. 
They didn't know that senior year English courses need to be 
writing based, not literature based for all students.
    And when we shared that, they changed what they're doing in 
the high schools and the vast increase in dual credit means the 
high school teachers focus is to get students in one of those 
dual credit courses their senior year, so they are preparing 
them for college level courses in addition to high school 
graduation.
    Mr. SABLAN. Yeah and yeah, I--so I see that and, you know, 
like we also have AP classes where you can but is--would this 
correlation between K to 12 and college, preparation for 
college, would it work also for say someone going to a 
vocational training program?
    Ms. MARWICK. Absolutely. Because the truth is for people 
going into vocational curriculum in post-secondary education, 
they have to know, be able to write, they have to be able to 
compute as well. So that's important.
    By giving them the appropriate dual credit courses in their 
career program, we can start their pathway towards a 
certificate and a degree in the career programs that they're 
interested in and show them that they've already completed 
college education and they don't have perhaps very much more to 
do in order to get at least their first certificate.
    Mr. SABLAN. Okay. So, I guess it does, you know, make a 
difference, tremendous difference for students to have a clear 
pathway to a degree and career so they are not left guessing 
what courses to take or how those courses connect to future 
jobs, employment professions.
    But again, Dr. Marwick, I understand that Harper College is 
starting a pilot that gives high school students access to 
healthcare pathway programs. In my district provider shortages 
and filling these healthcare jobs continues to be a challenge. 
Really big challenge. Also, can you tell us a little bit more 
about this effort and what led to its creation and please?
    Ms. MARWICK. Yes. We decided to start with a healthcare 
pathway and we do several things. We offer CNA in our high 
schools as dual credit. That is the first credential necessary 
to work and to take the licensed professional nursing or the RN 
program.
    Then we ask the high schools to identify students who were 
interested in our RN program and they came to the college in 
the afternoons. We only had four of them the first year that we 
did this, and they took anatomy and physiology, their English 
course, microbiology on the college campus and then passing 
those courses we reserved seats for them in our RN program, so 
they didn't have to wait to take the prerequisites.
    Mr. SABLAN. So yeah, in my district, we have a 2-year 
college that has a two year nursing program. Those students 
graduate from the 2-year take the NCLEX class, the NCLEX...
    Ms. MARWICK. Yes.
    Mr. SABLAN. and become qualified as registered nurses. 
Unfortunately, they can only practice in the northern, in my 
district not anywhere else. But this relationship between the K 
to 12 and the college, the State government is very much 
involved, the State of Illinois if I am correct, right? That 
agreement between this different, the schools--
    Ms. MARWICK. This agreement is between Harper College and 
our high schools.
    Mr. SABLAN. And our, and your high schools. Oh, okay.
    Ms. MARWICK. Other colleges in Illinois may have similar 
agreements however.
    Mr. SABLAN. Right. My time is up and the reason I am asking 
this is because we are trying to work--I am trying to convince 
our schools that high schools and our community college needs 
to align the career vocational education programs. Thank you, 
Mr. Chairman, my time is up.
    Chairman SCOTT. Thank you. The gentleman from Michigan, Mr. 
Walberg.
    Mr. WALBERG. Thank you, Mr. Chairman, and thank you for 
this hearing. This is an exciting hearing and I think we are 
starting to get the concept around here that our education 
institutions ought to be serving the best interest that we have 
for careers and jobs and people being prepared and ready to 
fill exciting job situations, career opportunities and oh, by 
the way, be responsible citizens and earn a paycheck. That 
makes a difference.
    So thank you to the panel for being here as well. Dr. 
Marwick, the dual enrollment credits that you offer to students 
may be part of a career pathway leading to employment. Could 
you provide further example of one of those career pathways?
    Ms. MARWICK. Certainly. We offer career pathways in law 
enforcement, in our fire science program, in our fashion design 
program, in our advanced manufacturing program to name just a 
few.
    Mr. WALBERG. Okay. And they are leading to jobs, actual 
jobs in those career areas?
    Ms. MARWICK. They lead to actual jobs in the career 
industry. On the other end, we have partnerships with the 
businesses in our community.
    Mr. WALBERG. Okay.
    Ms. MARWICK. We are expanding our apprenticeships programs 
and have apprenticeships in some of those fields so that 
students graduate from high school, can be hired into the 
apprenticeship program. They earn a salary, they go to school 
and three years later they have a degree without any debt plus 
they've had a salary.
    Mr. WALBERG. That is exciting to hear, and I wanted to hear 
more about that. Adron College for instance in my district, in 
conversation with Google came up with a plan developing a 
network now where Google said, you know, we love all of the IT 
students we get but we have to retrain most of them.
    They don't fit. They don't work in Google and so we have to 
take on all sorts of educational and training opportunities for 
them again. And so why don't we work with you, why don't we 
prepare your curriculum, work with your professors and do it in 
such a way that it can be transferred to other schools as well 
so we can get the 5,000 coders or IT professionals that come 
online immediately when they get to Google and see this with 
Olivetti College. And with Michigan State University. Working 
with major insurance corporations and providing jobs for the 
students as they are working toward a degree as well.
    How do you develop that relationship with business and 
industry so that they actually work with you and oh by the way, 
maybe pay the students as they are going through the 
internships?
    Ms. MARWICK. Our first advanced apprenticeship program was 
with Zurich Insurance and we are just now graduating our second 
class of students with the AAS degree in business with an 
insurance focus.
    Zurich pays for each of the students, pays for all of their 
books and they work at Zurich three days a week and they come 
to college two days a week and that's part of their employment 
agreement. Zurich has been really happy with the program.
    We are also doing a lesser number of students with Aon. We 
have started working with Northrup Grumman now on an electrical 
technology program.
    We as leaders of the college particularly our president, 
Kenneth Ender, he reaches out to the community, invites them 
over to our college to see what we are doing, asks them what 
their needs are and we are willing to adapt curriculum to 
produce those degrees and give students those skills.
    Mr. WALBERG. Wow, listening to industry, that is pretty 
neat. I am sure that is why you are having success there.
    Dr. LeGrande, in your written testimony, you state that 17 
percent of your students rise two or more income quartiles 
after graduation. To what do you attribute that success and 
does VCU also have particular employer partnerships that help 
contribute it to that outcome?
    Ms. LEGRANDE. When we think about the economic mobility of 
our students and looking at our strategies, we don't attribute 
it to one thing. We do attribute the success of our students 
able to move income quartile, quintiles truly because of the 
advantages that a VCU education has afforded them.
    The fact that students get to engage in a hands-on 
curriculum and engage with competencies in learning 21st 
century skills of critical thinking and problem solving, 
through our REAL experiences, students are able to really apply 
those hands-on strategies through undergraduate research or 
internships and work study opportunities.
    The students really are able to apply the knowledge in the 
classroom to the real world. And we find that employers in 
Virginia because so many of our students are from Virginia, 
many of them stay in Virginia and the employers share the 
success stories of our students in that way.
    With the new Major Maps that we have, one of things that we 
realize is that many of our students come to us saying they 
want to get a good job. And so, we want to help those students 
identify early what career options exist in a plethora of 
opportunities because often times students major in, want to 
major in disciplines for the careers they know but they are not 
aware of all of the careers that exist.
    And so the Major Maps allows students to be exposed to 
those concepts and share that information with their families 
who may also need to know about a broad range of careers that 
we can help prepare them for in the classrooms and outside of 
the classroom so that they can be competitive applicants for 
that job.
    Mr. WALBERG. Good. I wish you continued success. I am way 
over time so thank you, I yield back.
    Chairman SCOTT. The gentlelady from Oregon, Ms. Bonamici.
    Ms. BONAMICI. Thank you, Mr. Chairman. I just had the honor 
of speaking at the commencement at Clatsop Community College in 
Astoria, Oregon on Friday and I noted that a significant number 
of the graduates were continuing on to a four-year institution 
and I also want to note the importance of the TRIO programs to 
places like Clatsop Community College and other community 
colleges in Northwest Oregon and across the country.
    So, nobody on this Committee is going to be surprised to 
hear me talk about the Federal role in education being about 
equity. We know that many of the Federal education laws passed 
in President Johnson's administration with that focus on equity 
of opportunity and that means a couple of things. That no 
student should be denied the opportunity to go through higher 
education because of lack of resources but it also should mean 
that the higher education is quality higher education.
    And until those are fulfilled, I think we haven't met the 
promise of the Higher Education Act because we know how 
important, what a powerful force education is and especially 
for first generation students and students of color. We have 
some work to do.
    Dr. Marwick, we know more low-income students and students 
of color are enrolling in college, but they are still lagging 
behind peers. Mr. Gadkaree noted this as well. Low- and middle-
income individuals are significantly less likely to enroll in 
college than higher income peers. And Federal data released 
last month showed up to 50 percent gap in college enrollment 
between low income students and their wealthier peers.
    So, could you expand just a bit on the dual enrollment 
programs and how do you see those making a difference and I do 
want to have time for another couple questions.
    Ms. MARWICK. Sure. We still see gaps in low income and 
minority students and dual credit attainment but, what we find 
is they are 11 percent more likely to enroll at Harper College 
and they are 11 percent more likely to graduate than their 
peers without dual credit. So, we think it is making a 
difference for those groups.
    Ms. BONAMICI. And is that with any dual enrollment class or 
do you need to take a certain number of classes?
    Ms. MARWICK. We are measuring different amounts but that is 
with any dual enrollment.
    Ms. BONAMICI. Terrific. Dr. LeGrande, I was so glad you 
mentioned critical thinking and problem solving. I am the 
founder and co-chair of the Congressional STEAM caucus with 
Representative Stefanik. We know that integrating arts and 
design into STEM fields is building a more inclusive 
environment in classrooms and it supports a greater diversity 
of students interested in STEM including girls and people of 
color. We are seeing a lot of success especially at the K12 
level.
    And I want to note, we don't know today what the jobs are 
going to be when the students who are in school now enter the 
workforce.
    So, Dr. LeGrande, a couple things. What are you doing to 
diversity the workforce and to educate students to be flexible, 
creative thinkers?
    And I am going to ask my second question as well just to in 
the interest of time. Many of my constituents attend Portland 
State University which like VCU is a large urban institution so 
what are you doing to address the additional challenges of 
urban institutions and I know this isn't just an urban issue 
but things like food insecurity and the challenges of 
affordable housing which make a big difference in being able to 
complete.
    Ms. LEGRANDE. Thank you so much for the question. Your 
first question about diversifying the workforce and preparing 
students for the jobs that haven't even been invented yet, it's 
the important of the general education and making sure that we 
have a strong curriculum around our general education.
    We are currently at VCU working on our general education 
redesign to make sure that we are really fully engaging 
students around those concepts of critical thinking and written 
oral communication. The transferable skills that will go with 
you regardless of what your career path is but to make sure 
that we are preparing students to be lifelong learners with 
actual functional skills to get that first job and then to be 
able to move on to that next suite of jobs.
    I think again that's where the real experiences are 
important because we serve such a large population of students 
who are first gen and low income, they don't come to us with 
the social capital to network and to understand all of the 
pieces to help you land that first job in your next job and so 
those are important to make sure in addition to the hands on 
technical skills that those students often have--also have 
those soft skills.
    The second question about the urban institutions and the 
challenges that come along with serving high need populations, 
we currently at VCU do have a food pantry and we also have an 
off-campus support program and office that helps students who 
have home--house insecurity and food insecurities to connect 
them to local resources including SNAP benefits, emergency 
housing, and our food pantry on campus.
    Ms. BONAMICI. Thank you so much. My time is about to 
expire, I yield back. Thank you. Mr. Chairman
    Chairman SCOTT. Thank you. The gentleman from Kansas, Mr. 
Watkins.
    Mr. WATKINS. Thank you, Mr. Chairman. I believe the 
objective of post-secondary education must be to prepare 
students to enter the workforce with the skills needed for 
lifelong success.
    In my conversations with Kansas employers and businesses, 
one of the top concerns always mentioned is the significant 
labor shortages that our industries across the board are 
facing. Higher education is the pivot point into a well-paying 
job and our students need to be equipped to step into this back 
log of existing jobs.
    From Congress our focus should be to smooth the way by 
enhancing--by enticing pro-growth policies that allow 
educational institutions the room to be innovative and partner 
with local employers.
    However, Congress tends to look at Federal laws authorizing 
education and workforce development programs as separate 
initiatives. But this is a fragmented approach that results in 
programs that fail to interact.
    Dr. Marwick, in the Northwest Educational Consortium for 
Student Success that sounds like an entity looking to bridge 
the gap in this policy. Why did Harper College decide to join 
the consortium and what organizational changes did you have to 
make to better serve student because of your participation?
    Ms. MARWICK. We started the consortium. The superintendents 
of the three high school districts and the president of the 
community college said let's do this. And with leadership from 
the top, we designed a structure, data sharing, and we started 
talking about what our students needed.
    They start talk about careers in high school. We show them 
the pathways to get there. Our first success was with 
remediation in math. Eliminating most of the remediation in 
mathematics when students go to any college.
    We consider that a big win and then we move forward with 
more dual credit, a vast expansion with the idea that everyone 
in high school should be able to get some college credit.
    Mr. WATKINS. Thank you and, Mr. Chairman, I yield back.
    Chairman SCOTT. Thank you. The gentleman from California, 
Mr. Takano.
    Mr. TAKANO. Thank you, Mr. Chairman. I am delighted about 
the bipartisan interest in issues surrounding dual enrollment. 
I served 22 years on a community college board as an elected 
trustee and was delighted to see the expertise of a former 
university president in Congresswoman and former Secretary 
Donna Shalala.
    So, you know, I want to--as a trustee I recall and you 
were--and I gather Harper College is public community college 
in the Chicago system. Is that correct?
    Ms. MARWICK. It's not part of the Chicago system. We're in 
the suburbs of Cook County.
    Mr. TAKANO. So, but you are a public community college?
    Ms. MARWICK. We are a public community college.
    Mr. TAKANO. Can you tell me in what ways--I remember, I 
recall the challenges in getting these programs started is the 
planning resources. Is that still true?
    Ms. MARWICK. There are certainly resource challenges for 
community colleges, yes. What we started off with is we limit 
the cost for the dual credit. One of our districts passes some 
cost on to students, the other district covers the cost for 
their students.
    Mr. TAKANO. So the--whether a funding model they use for 
the K12 and there is different segment for higher ed, this 
attempt to blend these two functions is a source of I think 
confusion for how state governments do the funding.
    Ms. MARWICK. It is. And it's a little bit tricky. In 
Illinois, when you have dual credit in the high schools, the 
high schools get credit for those students in attendance and 
the college gets credit for credit hour reimbursement for those 
hours.
    Mr. TAKANO. And so what I am getting at is that to get 
these programs started, even though they have tremendous 
benefit in terms of diversifying higher education and the ways 
in which not over utilizing the traditional AP path to, you 
know, get those extra credits, the advantages that we see for 
low income and minority students to be able to succeed and move 
into higher ed, getting these programs started then to expand 
the number of programs I see as related to these--the confusion 
over how we are going to fund them but also the planning 
resources available for community colleges and the high schools 
to be able to work together. But how much money do you think it 
takes to get a program started if you are to start from scratch 
as a new community college?
    Ms. MARWICK. We have tried to think about that. It's pretty 
difficult to think about the faculty time, the teacher time, 
the administrative time that goes into setting up one of these 
programs.
    But with the outcomes we have seen, we were committed that 
this was part of our strategic plan and that we were all 
committed to do it together.
    Mr. TAKANO. I had a, I don't know if I ever put this idea 
to a bill but I, there was a way which I was thinking about how 
we could maybe look at the Pell grant being made available to 
an early college high school program or a dual enrollment 
program so that money could increase--so if everybody who was 
low income and qualified for a Pell grant say in a high school 
cohort or an early college high school could be qualified for 
that Pell grant, that would be a way for us to make sure that 
we had the seminar, the smaller class size for seminars for 
example. You know for seminars style of teaching.
    What do you think about the possibility of finding ways for 
the Federal Government to assist these programs in that way?
    Ms. MARWICK. I think that's an excellent idea. You could do 
it in the same way that adult education students are allowed to 
use Pell if they qualify when they're simultaneously taking a 
career course while finishing up their adult education.
    Mr. TAKANO. And so I think probably two things, maybe the 
Federal Government would maybe help you out with is to help you 
with some of this planning money so local school districts and 
community colleges could work together on that but also to find 
a source of money, if you are delivering dual credit and these 
kids are getting actual college credit, why shouldn't they 
qualify for Pell if they are low income?
    Ms. MARWICK. I agree with you.
    Mr. TAKANO. All right. Well, I yield back Mr. Chairman.
    Chairman SCOTT. Thank you. Gentleman from Texas, Mr. 
Wright.
    Mr. WRIGHT. Thank you, Mr. Chairman, and thank all of you 
being her today. It has been a really interesting discussion. I 
wanted to start with you, Ms. Long. I am very intrigued by your 
CBE program.
    But I wanted to see if you could elaborate a little bit 
because I think the more innovation the better an education. 
You mentioned that you talked about the assessment, talked 
about the measures and they have to prove, you know, that they 
got the material.
    Can you talk just a little bit about how that is done? In 
other words, to what degree is that subjective and are there 
tests? Can you elaborate on that just a little bit?
    Ms. LONG. Be delighted to do that and Texas is really 
leading the way in the CBE effort.
    Mr. WRIGHT. Yes we are.
    Ms. LONG. You know, when you look at the Texas affordable 
baccalaureate degree, you look at the results that we see out 
of Texas A&M Commerce, where folks that are completing their 
CBE program are doing that at about $6,000 versus 14,000--
    Mr. WRIGHT. Right.
    Ms. LONG.--for a typical Texas student, so good things are 
happening in the state of Texas and you should be proud of 
that.
    Mr. WRIGHT. Right, thank you for that.
    Ms. LONG. So, I would say when it comes to assessment, we 
really believe that assessment needs to be authentic and what 
we mean by that is that if the learner, you're going to say 
that this is what you need to know and be able to do. We need 
them to assess in a way that is as similar as possible to what 
it looks like when they graduate.
    So, if we are thinking about critical thinking skills or 
problem-solving skills what does that look like post-
graduation? It's probably some sort of a project, it's some 
sort of an applied activity in which they're having to look at 
things from different angles and figure out how it works, 
right.
    And so that is exactly what we ask our CBE programs to 
design. Assessments that mirror as closely to--as possible what 
that looks like in application post-graduation. That is 
typically not a pen and paper test.
    Mr. WRIGHT. Right.
    Ms. LONG. I have never gone to work and been asked to 
complete a multiple choice test, right. And so, in a CBE 
program you are going to see a different kind of assessment 
model that's really based on this more authentic assessment 
strategy.
    Mr. WRIGHT. And in terms of the critical elements that you 
would want to see in the Federal policy, you mentioned 
flexibility. Is there something else?
    Ms. LONG. Yeah, so I think there is a whole long list of 
things that constrain us when we are having to measure 
everything by the credit hour.
    So much of what we want to be able to do is have that 
flexibility from time. Why should time measure learning? 
Shouldn't learning measure learning? And so being able to 
disconnect that from time is really important.
    But every Federal financial aid regulation is somehow tied 
back to that credit hour and to time. So, when we look at 
satisfactory academic progress, when we look at the academic 
year, when we look at weekly engagement, all of those pieces 
just keep tying back to time and it's limiting CBE innovation.
    Mr. WRIGHT. Right. Dr. Marwick, I could ask this of all of 
you, but I am going to start with you. In my district, you 
know, the students are blessed to have a lot of opportunities, 
a lot of educational opportunities. We have one of the largest 
universities in the state. We have a very robust community 
college system, some very large school districts and that's 
just in Tarrant County, part of my district. And they all work 
together.
    They came together a few years ago during what has already 
been discussed here but they brought in the high schools. They 
brought in the school districts. And so they have this dual 
credit program which I am proud to say my oldest granddaughter 
is part of. She is going to graduate next year probably with an 
associate's degree.
    But the university has committed to accepting the credit 
hours of these dual credits that they're going to get in high 
school. And that is one of the reasons, it is not the only 
reason but it is one of the reasons that the University of 
Texas at Arlington has the lowest--when students graduate, the 
lowest student debt of any university in Texas and one of the 
lowest of any public university in the country.
    And that is one of the reasons and in the last 17 years, 
the number of students that are doing this in Texas has 
increased 1100 percent. I mean, it is having a huge impact on 
education in Texas.
    There are a lot of different models for this and the one I 
wanted to ask you, starting with you but kind of go down the 
line, I don't have much time. Is what do you see as the most 
successful model?
    Ms. MARWICK. I think when we can smooth the educational 
pipeline by having all of the educational units work with each 
other, secondary, post-secondary, community college, 
university, that's when we do the best job for our students. 
And we should incentivize those kind of partnerships because 
there's not enough of them and when we have them they're very 
effective.
    Mr. WRIGHT. How would you do that incentivizing? When you 
say incentivize, how would you do that?
    Ms. MARWICK. I would say that advising is very important 
both in the high schools and also at the colleges. We are using 
a case managed advising system. We are making sure that every 
student has an education--a pathway to degree completion in 
their first semester and we are seeing higher persistence rates 
and graduation rates since we began that.
    Chairman SCOTT. The gentleman's time has expired.
    Mr. WRIGHT. Sorry.
    Chairman SCOTT. Is, Dr. LeGrande, if you want to very 
briefly respond.
    Ms. LEGRANDE. I agree that smoothing the pathway will be 
important for students who choose to start with dual enrollment 
community college in the institution.
    One of the things that we have done is partner with the 
community college for example to have advisors at the community 
college and at the university that share clear articulation 
agreements and degree pathways that move beyond these handshake 
agreements but really allow students to understand exactly what 
we--will be counted so that they can make a four year plan so 
they do their two years at the community college and two years 
at the university.
    Mr. WRIGHT. Thank you. And thank you, Mr. Chairman, for the 
extra time.
    Chairman SCOTT. Thank you. The gentlelady from Florida, Ms. 
Wilson.
    Ms. WILSON. Thank you, Chairman Scott, for holding this 
hearing on improving equity in higher education through 
innovation and thanks to the witnesses for testifying this 
morning.
    Although African American and Hispanic students have made 
tremendous academic strides since the Civil Rights Era, 
graduation and dropout rates suggest that substantial barriers 
persist.
    For example only 40 percent of African American and 54 
percent of Hispanic students who go to college complete their 
degree. Moreover, although high school incompletion rates are 
improving, at 22 percent and 20 percent for African American 
and Hispanic students respectively they are still high. 
Therefore the innovative ideas we will be discussing today such 
as dual enrollment in high school and additional students 
support services in two and four year colleges among many 
others have the potential to significantly decrease the equity 
access gap in higher education.
    Some very innovative educational programs are in my 
Congressional district in Miami, Florida. Florida International 
University, the Nation's largest Hispanic serving university 
has a number of successful programs that really stand out.
    Among them are the universities dual enrollment as an 
accelerated program offering credit for previous work 
experience, a seamless transfer pathway from high school to 
college program and pre collegiate programs to increase college 
going students, focus on quality engagement with high school 
populations and summer bridge activities.
    FIU has also partnered with area high schools to help 
accelerate time to college completion and since 2009, has 
helped thousands of high school students obtain college credits 
to reduce the amount of time and money required to obtain a 
college degree.
    Another innovative program at FIU is the Golden Scholar 
Summer Bridge Program which provides an alternative admissions 
pathway for 65 to 85 minority first generation students and I 
was proud to hear that this program is helping to support 8 
Wilson scholars who will enter FIU in the fall.
    I have a couple of questions for Mr. Gadkaree. What are the 
major barriers holding back low income students and students of 
color and why have they proven so difficult to remove?
    Mr. GADKAREE. Thank you. One thing that I will note is that 
our Nation spends $5 billion less educating students of color 
in the higher ed system than it does White students. And that 
is from a study by the Center for American Progress and that 
ties into some of the supports that we are talking about.
    In the community college settings where we have, where 
there are fewer resources, students are getting less support. 
There is less money for instruction, and that is certainly a 
contributor to the gap although it's not the only reason.
    Ms. WILSON. And now what are the implications of these 
persistent access and success gaps on intergenerational 
mobility and income inequality?
    Mr. GADKAREE. So certainly because we are seeing college 
become more and more essential, we are getting to a well-paid 
job. As I noted there is significant growth in well-paid jobs 
for bachelor's degree graduates and there is some growth for 
associate's degree and certificate graduates.
    But as a result of that, if we aren't able to get students 
of color and low income students to that baccalaureate level, 
its exacerbating the racial and economic inequality in our 
country.
    Ms. WILSON. We have heard during our last hearing the 
different institutions have vastly different funding levels and 
that the institutions serving the largest share of low income 
students and students of color are often the same institutions 
that struggle to provide the support students need because they 
are chronically underfunded.
    Do--you just explained to us those differences and how does 
that underfunding impact the ability for these children to 
receive a quality education and what can we do as Congress to 
help support that?
    Mr. GADKAREE. One of the things I mentioned in my testimony 
was that there are these programs like CUNY ASAP, like 1 
Million Degrees which works with Harper College as well as some 
of the community colleges in Chicago, the Arkansas Career 
Pathways Initiative.
    And in these programs we are seeing both financial support 
and levels of student services and advising that are at 
dramatically higher intensity than community colleges typically 
can provide and that four year colleges can typically provide.
    So just to give you an example, in the Stay the Course 
program which is in run by Catholic Charities in Dallas Fort 
Worth, they have caseloads of 34 student per a, per social 
worker. That's, you know, more than 10 times more intensive 
advising and support than students would get in a community 
college setting.
    And so that's the kind of thing that community colleges 
can't afford and partly as a result, I would wonder whether 
these programs that have shown that they can double graduation 
rates, if we are trying to scale them, we may need to get that 
kind of support to more students.
    Ms. WILSON. I yield back, my time is up.
    Chairman SCOTT. Thank you. The gentleman from South Dakota, 
Mr. Johnson.
    Mr. JOHNSON. Yeah, I think I will pick up the ball and 
continue to ask questions about this advising issue. I just, I 
loved the intrusive advising model that you have talked about. 
I mean, talk about truth in advertising, right. I mean, it is 
intrusive what you are talking about because people need those 
extra supports and they are from an evidence based perspective, 
proven to work from the information you shared.
    Talk to me a little bit was there an ah-hah moment, Ms. 
LeGrande, where it just, you guys decided to drastically change 
how you approached advising?
    Ms. LEGRANDE. Well, I think as an institution when we think 
about the students we serve in meeting them where they are 
which we often know is that sometime students don't know what 
they don't know and so they don't know where to start. And so 
we have to be there to make sure that we offer them that 
support.
    And I think when our leadership at the institution realized 
that we had advising ratios as high as 1700 to 1 advisor that 
did not allow us to be able to offer the kind of intrusive 
experience that these students need.
    And so the institution leadership, our president and 
provost invested the resources, making some hard decisions to 
allocate new advising positions across the institutions to 
lower that advising load from that number to closer to about 
350 to 1. Now that's still a large number for any group, any 
advisor to see 350 students but that's where the technology 
comes in with some predictive analytics to really help the 
advisors understand and to prioritize the student populations 
early to intervene to help students before they get into 
trouble but also to identify the students who really need the 
most intensive conversations to help them stay on that right 
track. That was our ah-hah moment that we needed more 
individuals to be able to create this culture of care and 
support at VCU.
    Mr. JOHNSON. So I love the use of technology because it is 
easy to imagine it as a force multiplier and so, you know, Dr. 
LeGrande, talk a little bit about, I mean, Mr. Gadkaree talked, 
he raised concerns about scaling and expense and cost. Would 
institutions, I mean, it has got to be a little difficult to 
imagine finding the resources to integrate this technology into 
the advising network, right?
    Ms. LEGRANDE. Yes. The technology is expensive, right. But 
I will say for institutions that find themselves in a place not 
ready to procure technology, I would suggest that you look at 
the data, right, because the technology is grounded in the 
data. And let the data guide the conversation.
    Who is really disadvantaged by the support structures that 
currently are not working for them? Right. And go beyond just 
race and ethnicity, go beyond that to look at the intersection 
in what majors, in what departments, first generation students 
and then engage the students in that conversation to learn of 
their experience letting the data guide you.
    Then you can identify and develop support mechanisms and 
approaches to implement with an assessment plan. And so if data 
is the foundation of that work, what we will--what you will 
find is that you're continually assessing yourself as an 
institution, identifying what is working, what is moving the 
needle and what is not moving the needle and then being 
courageous enough as an organization to decide to stop doing 
things just because we have always done it that way if it's not 
working for the students.
    Mr. JOHNSON. Yeah, I just love this data driven approach 
you are talking about, I mean, it just, we should be ringing 
bells all over Capitol Hill today because that is exactly what 
is going to help move the ball down the field. So how much of 
this advising framework, I mean, clearly it is about 
matriculation, it is about educational progress and it is about 
course selection.
    Is there a financial component to this as well? And while 
you are answering, if there are things that Congress can be 
doing or that the Higher Education Act can be doing to help 
with that financial advising let us know.
    Ms. LEGRANDE. So definitely. When we think about advising, 
intrusive advising, it has to be about the whole student 
because non-cognitive variables and things outside of the 
classroom really impact that student experience and finances is 
one of them.
    And that's how completion grants came to be at VCU. We 
found through advising conversations and looking at the data 
that we had students who were running into small financial 
barriers that prevented them from persisting and so we were 
able to develop completion grant programs for students who have 
90 credit hours.
    So they're just within 38 credit hours shy of earning that 
degree but they were stopping out, going to work and never 
returning. And so engaging advisors with students we were able 
to identify that to be a problem.
    We are now moving to a more intensive financial advising 
structure in the next coming year for that reason where we will 
model very similarly the academic advising case management 
model on the financial side. Because we realized that our 
students not--need more than just financial literacy. They need 
financial engagement.
    They need a partner in this conversation to help them 
understand how they can finance their education, what resources 
to leverage across the institution and how to make good 
financial decisions so that they can then accelerate their time 
to degree and graduate with less student loan debt.
    Mr. JOHNSON. Well said, doc, thanks very much and, Mr. 
Chairman, I yield back.
    Chairman SCOTT. Thank you. The gentlelady from North 
Carolina, Ms. Adams.
    Ms. ADAMS. Thank you, Mr. Chairman, and thank you as well 
to the ranking member and thank you for your testimony today. 
It has been very enlightening and I want to just say that at 
our last bipartisan hearing, we heard about the important role 
that historically Black colleges and universities, tribal 
colleges and Hispanic serving institutions play in supporting 
students of color.
    I am a proud two-time graduate of North Carolina A&T State 
University the largest HBCU in the country, public HBCU, I 
taught at Bennett College for 40 years so I have a tremendous 
interest here.
    But most of the conversation that we had focused on the 
importance of fostering a sense of belonging and elevating the 
communities of cultures of enrolled students as well as setting 
the importance of setting high expectations and examples for 
diverse students to follow.
    Dr. LeGrande, let me ask you, first of all it is good 
seeing you again. Given these significant gaps across the 
Nation and persistence and completion between students of color 
and their White peers, can you speak to what you think 
predominately White institutions can learn from minority 
serving institutions when it comes to better serving students 
of color?
    Ms. LEGRANDE. Well, I think if we were to distill that 
down, it would probably rise to two broad topics. One is that a 
sense of community matters so that help students understand 
that the institutions care about them, that the institution is 
committed to designing structures that are just for them. 
Right. Understanding their cultural backgrounds and their 
needs.
    Not seeing students from the deficit perspective or the 
things that they don't bring to the table but leverage their 
experiences to understand the strengths and components they do 
bring to the table build on that to develop the necessary 
skills.
    And the second thing I would say is that representation 
matters. Having models in the classroom and in leadership, will 
help students understand the possibilities that exist, possible 
mentors for them and that ensures that leadership around the 
table reflect diverse thought and contributions to the 
conversation of helping all students succeed.
    Ms. ADAMS. Thank you. Ms. Long, would you like to comment 
on that issue? Yes.
    Ms. LONG. I think one of the things that we often do is 
hide learning from learners. And we are not very transparent 
about what it is that we hope they are going to learn in a 
particular course or in an area of study. And by hiding 
learning, it makes it very difficult for learners that might be 
first generation, learners that don't have a sense of community 
to find their way.
    It's one of the things I like most about competency based 
education is that learning becomes transparent. Students are 
told this is what you will learn, this is what you are going to 
be able to do, this is how you can apply that knowledge. They 
see immediate applicability and a desire to continue to learn 
because they know what they can do with it.
    Being able to create a sense of culture and community. If 
you're creating a whole program that might be delivered 
distance learning for example what are we doing to create a 
sense of community for those learners and institutions we have 
in our quality framework we ask them to integrate that as well.
    Ms. ADAMS. Okay, thank you very much. Let me touch on the 
importance of examples for diverse students and how cohort 
based students support models peer mentors towards affinity 
groups can help students of color thrive which also creates a 
sense of community.
    Dr. LeGrande, you mentioned that your office has developed 
the you first at VCU to provide targeted supports for the first 
generation students. I was a first generation student myself. 
Can you tell us a little bit more about this effort and the 
results that you have seen from it?
    Ms. LEGRANDE. Sure. Our you first effort is really an 
effort to create a network of programs and initiatives across 
the institution that focus on first generation students.
    The goal is really to increase their retention and academic 
success, to help them understand habits of successful students 
because they may not have anyone in their family that have a 
college going history. And the third is to make sure that they 
have opportunities to be engaged in the experience.
    And we do this, we start at orientation with the students 
and their families identifying first generation students and 
bringing them together so that they realize they are not alone.
    We have a summer scholars program in which we have a bridge 
program for students where they can earn six credit hours in 
the summer to get a jump start on their college education. This 
allows the students to get familiar with the campus and 
understand resources available to them and build community 
among their peers.
    We have an all TRIO scholars program which is a delayed 
scholarship gratification program because we really help the 
students the first two years with peer mentoring support with 
other students who are first generation college and in their 
junior and senior years we provide them upper division 
scholarships to encourage them to persist and move forward. 
This network really takes under an umbrella all of our efforts 
for first generation college students so students have one 
centralized resource to understand everything that exists for 
them.
    Ms. ADAMS. Thanks very much. I am out of time but, you 
know, I think it would be great if we could replicate some of 
these things in our workforce as well. Mr. Chairman, I yield 
back.
    Chairman SCOTT. Thank you. Gentleman from Georgia, Mr. 
Allen.
    Mr. ALLEN. Thank you, Mr. Chairman, and, you know, one of 
the things that I have learned here is one of the benefits of a 
growing economy is we also are creating lots of jobs and lots 
of opportunity.
    Because of our success and the hard work of the American 
people, there is--I see more opportunities for young people 
today than I have seen in my lifetime. In fact, we have many 
more jobs available than we have people looking for jobs and I 
want to applaud you as educators obviously you have taken on 
this challenge because for whatever reason, we have had a 
disconnect for some time between the job creators and those of 
you who educate.
    You know, when I go into the district, I have college 
graduates who have come to me with student debt and they said 
they can't find a job in their field. Yet when I visit all the 
job creators, the institutions, you name it, businesses, they 
all need a skilled workforce. And of course we have made some 
efforts to from the--this level, the Federal level to try to 
mend that disconnect that we have.
    Because again I believe the only thing from keeping this 
economy from growing even faster is the skilled workforce out 
there.
    And, Ms. Long I see you shaking your head. So I will start 
with, you know, your competency based model and, you know, are 
there particular programs that are easier to develop and if so, 
do you have some--could you tell us about those programs and 
any correlation between those programs, technical skills, and 
the in demand high paying jobs that are available out there 
today?
    Ms. LONG. Yes, so I believe that you can develop a CBE 
program in any area in which they need employment, right. Where 
there is a need for a skilled workforce because we always start 
with the end in mind. What is it that you need and then how can 
we help build that, right.
    So higher education owning that part of the role in making 
sure we have a skilled workforce. So starting with that 
backward design model, a lot of times we see programs in IT in 
business, in healthcare fields, in advanced manufacturing, in 
some of those really in demand jobs, programs across the 
country try to modularize and by that I mean they take 
knowledge, skills, and abilities, and those intellectual 
behaviors and break them down and can offer them in discreet 
courses so they can more quickly stack various modules together 
to create a new program for a new workforce need.
    To your point earlier, many of the jobs we are going to 
have tomorrow haven't been created. So thinking about lifelong 
learning not as I'm one and done, I have my degree, but I'm 
going to have to continually retool myself and as an 
institution I also need to think about its not just one and 
done but it is about this how do we stack these modules 
together.
    I think that is one of the benefits of competency based 
education is helping to create that more skilled workforce.
    Mr. ALLEN. Exactly. And I know in our business we look for 
people with experience. In fact, my mom, my dad went off to war 
and she was a sophomore in college and she committed to work 
for the war effort and never quit working. And she graduated 
from college when she was 42 years old.
    Ms. LONG. That's terrific.
    Mr. ALLEN. And I was so proud of her and she is, she is a 
long time school teacher. An amazing, amazing lady. So she had 
the opportunity to work her way to what she finally wanted to 
do.
    But as far as the modularization of CBE, you know, as far 
as the decentralization capabilities and competencies and the 
ability of schools to from innovative programs outside the 
traditional hierarchal structure, what is the benefit of 
stackable credentials and how can more schools incorporate this 
model in the future?
    Ms. LONG. Yeah, it's really about responsiveness to the 
need. It's about trying to say what is it that our workforce 
most needs? What can we do in order to create a program more 
quickly to respond to those needs?
    If you listen to governors, you listen to folks that are 
doing economic development for states, for our Nation, it's 
about how do we get that workforce prepared?
    By being able to stack competencies designed to develop 
problem solving, decision making looks like problem solving 
decision making. In a different context, we still can add that 
specific contextual knowledge but that to us is key.
    Mr. ALLEN. Yes, I'm about out of time but--
    Ms. LONG. Yes.
    Mr. ALLEN.--you know, we are a global economy--
    Ms. LONG. That's right.
    Mr. ALLEN. And the number one thing that every business 
looks for out there is when they locate their business is a 
skilled workforce. Thank you for accepting this challenge and I 
commend you and I yield back, sir.
    Chairman SCOTT. Thank you. The gentlelady from Washington, 
Dr. Schrier.
    Dr. SCHRIER. Thank you, Mr. Chairman. First, I would like 
to submit for the record the Western Governors Association 
Policy Positons and recommendations related to post-secondary 
education and workforce development as they are eager to engage 
with us on higher education issues.
    Chairman SCOTT. Without objection.
    Dr. SCHRIER. Thank you. And thank you to the witnesses 
today for testifying. You all mentioned some great and 
impactful initiatives to increase higher education student 
access, enrollment, and completion.
    And as I was reading your testimony I found some really 
nice parallels and similarities with what you are doing or 
investing in and what Washington State is doing.
    The Running Start program in Washington is a dual 
enrollment program for high school juniors and seniors to take 
tuition free college credit bearing courses at several public 
four year institutions at any of our State's career and 
technical colleges.
    In fact, I am a pediatrician and many of my patients have 
enrolled or are part of the Running Start program and that have 
gone on to University of Washington or other universities right 
after high school as sophomores or juniors and that is 
incredible and a way to save money.
    Washington community and technical colleges also have a 
universal articulation agreement with the state public four 
year institutions similar to what you described, Dr. LeGrande, 
regarding VCU. And Washington State University has a similar 
program called Invest in Cougs, Washington State Cougars, which 
provides students an incentize to save money while they are at 
college and in return provides financial management counseling 
and an opportunity to quadruple their savings up to $4,000 to 
pay for every day expenses.
    And these are great initiatives but they could be improved 
and I was hoping to hear from your experiences about 
opportunities for improvement.
    Rural areas face challenges funding transportation for 
running start students and it is harder for high school 
students and the teachers in these areas to gain the necessary 
credentials to teach credit bearing college courses in high 
school.
    So my questions is how do we ensure that rural communities 
have the same access to these great opportunities especially 
after hearing from Mr. Gadkaree that investments in technology 
may not be effective?
    Ms. MARWICK. I worked at a rural community college earlier 
in my career and I started a partnership there with the school 
districts. Some of which only gradated 60 students a year.
    And it is a--teacher credentials are a problem across the 
country and it is certainly across the state of Illinois. I 
would like to see the Higher Education Act incentivize and pay 
for high school teachers to get the necessary credentials to 
teach more dual credit courses.
    I think what we have done in a number of cases where our 
high school teachers haven't had it, we have reached out to 
partner four year universities who have agreed to offer the 
classes at one of the high schools after the high school day.
    In one case, the high school paid for their teachers to 
take those courses, the other district did not and not many 
teachers enrolled. So that is a cost issue.
    Dr. SCHRIER. That is a great idea and certainly on a 
teacher's salary, having the universities pay is, that is an 
incredible resource. Thank you. Any other? Yes.
    Ms. LEGRANDE. And so I guess I think about the 
opportunities we have as we are preparing students for their 
careers. I think about our social work program, our education 
program where students really have a lens towards social 
justice and equity really making sure that we are connecting 
those students and possible opportunities to impact rural 
communities as well.
    We have lots of access oriented approaches when we are 
recruiting students to the institution and those rural 
communities but wanting to make sure that we are connecting our 
students back to the communities that they serve is an 
important part of our experience at VCU with making sure we are 
directly impacting rural communities is an important part of 
the work too.
    Dr. SCHRIER. Thank you. And I was actually going to ask 
about the micro grant efforts and their successes in increasing 
graduation rates.
    Washington State University's Invest in Cougs is similar 
but as mentioned today a quarter of student are parents and 
nearly 10 percent are homeless which means they have needs that 
are far beyond what even $4,000 would pay for, fixing a tire or 
paying off outstanding fees. I wondered are there some 
successful efforts that have addressed these larger life costs?
    Ms. LEGRANDE. Well, you're right. Completion grants are 
small, impactful for the immediate. I think a few things that 
would impact longer term is really thinking about how do we 
incentivize progress to degree. Are there opportunities for us 
to give students additional funds as they're making timely 
progress to degree to reward them for this work.
    There are some institutions that have found opportunities 
to do retention grants and its one of the things that we are 
pursuing at VCU looking into that direction.
    But I think the other thing is as we think about our Title 
IV programs for example, opportunities to make sure that they 
are adjusting for the cost of inflation like the Pell grant 
program and our Title IV programs right now when we think about 
the cost of education, between Title IV programs, state grants, 
and institutional grants, we still have students with so much 
unmet need, unmet need toward the total cost of education.
    And so as we are thinking about the reauthorization of the 
Higher Ed Act, how we can shore up our Federal resources as 
states also think about how they can contribute and invest more 
holistically I think those kinds of things will help students 
stay on par and cover the cost of education.
    Dr. SCHRIER. Thank you so much and thank you to all of you 
and I yield back my time.
    Chairman SCOTT. Thank you. The gentleman from Wisconsin, 
Mr. Grothman.
    Mr. GROTHMAN. Ms. Long. With regard to competency based 
education, I hope one of the goals of this Committee is to get 
out of here or pass something that is going to reduce the cost 
of education which is one of the reasons why we have this huge 
student loan debt and quite frankly I think anybody part of the 
higher education system ought to go to bed at night just 
wondering what they did wrong that we have so many young people 
so in debt.
    Can you talk a little bit about competency education both 
the effect it would have on student loan debt as well as the 
effectiveness in measuring whether somebody has actually 
learned something in a class?
    Ms. LONG. Yep. Two questions there. One you asked also 
about cost, right. So for a lot of CBE programs, they've been 
able to lower the cost of the degree and often times that's 
done by the amount of time it takes to get to degree. So if you 
think about some use what we call a subscription model where 
you pay one price and you learn as much as you can.
    It's like being at a buffet line, right, and you eat more 
than you really should have but it was free or it was included 
and you just keep eating? And learners in subscription models 
tend to take more and be able to go more quickly which is in 
essence reducing the cost of that degree.
    In addition to that, recognizing learning that has occurred 
from being agnostic as to the source of learning and 
recognizing leaning that has occurred in a non-classroom based 
setting, but validating that learning as being college level 
has also yielded those kinds of cost savings.
    Mr. GROTHMAN. Would you rather hire somebody who passed out 
of the, a competency based education or somebody who just you 
know--
    Ms. LONG. You're asking a very biased question of a person 
like me.
    Mr. GROTHMAN. I know.
    Ms. LONG. I would take a competency based person because 
that institution is standing behind that learner and saying we 
know this person can demonstrate and has demonstrated their 
competencies. They may actually have a transcript in which you 
can see what that looked like, what that demonstration looked 
like. If that's some sort of a performance, a simulation, what 
have you.
    But you know what you are getting versus they got a C and 
I'm not sure what that C means. I don't know what is taught in 
that class. So I do think competency based education gives 
employers, gives the learner and gives the government as the 
payer and in most cases more assurance of learning.
    Mr. GROTHMAN. Right. A C in a 19th century literature 
class, you don't know what it means, correct? You don't know if 
that has got value or no value whether than just that some 
university charged somebody for it. But in competency based 
education you know you have something of value so it is a 
superior way of judging whether you had value for your 
education isn't that true?
    Ms. LONG. It's a way of articulating what it is that you 
know you can do. So your knowledge, your skills abilities, and 
your intellectual behaviors in a way that is very transparent 
not just to the learner but to anyone else that would see that 
learner's record.
    Mr. GROTHMAN. And you feel because different people learn 
at different rates, that you could wind up reducing the cost of 
tuition and reducing the size of student debt with a more 
competency based education?
    Ms. LONG. Let me give you my feeling is yes. I would love 
to see more data that backs that feeling up, right. So what we 
see in early data is that it's showing promise that it can 
reduce costs. I would like to see more data to prove that out 
but that would be my personal feelings since you asked about my 
feelings. So yes, that's how I would answer that question.
    Mr. GROTHMAN. I am--the University of Wisconsin, my alma 
mater is aware that they can produce maybe better students at 
less cost with competency based education but they have some 
problems with Federal regulations.
    Do you want to comment on the Federal Government standing 
in the way of better education and lower student debt?
    Ms. LONG. So when you look at a direct assessment program, 
University of Wisconsin extension has a direct assessment 
model. When you look at that model that's completely untethered 
from course and time, any of those programs and there is really 
less than a dozen of them across the country had to go through 
a two-step approval process, not just through their regional 
accreditor but also through the Department of Education. And 
then everything they do must still tether back in some way to 
time. Those are constraints.
    Mr. GROTHMAN. You, the rest of you, you are all part of 
what I would call the educational establishment. Do you see a 
lot of guilt out there on the part of administrators and 
academia's as far as the huge amount of student loan debt and 
the degree to which they have crippled these young people? Is 
there a sufficient amount of guilt out there among these folks?
    Ms. MARWICK. I don't know if I can comment about guilt, but 
I will say that we watch very closely our tuition and at 
community colleges the tuition is quite low. We have tied it to 
the CPIU or to increases for--
    Mr. GROTHMAN. Are you guilty when say you run across a 35 
year old with $40 grand in debt? Does that make you feel 
guilty?
    Ms. MARWICK. Yes.
    Mr. GROTHMAN. Good. Good, good, good, good. Thank you.
    Chairman SCOTT. Thank you. The gentlelady from Connecticut, 
Ms. Hayes.
    Ms. HAYES. Good afternoon. Thank you, Mr. Chair, and thank 
you to all of the witnesses who are here today. Just very 
briefly, as a very high performing classroom teacher, I value 
public education and the work that we have done and the 
investment that we make in children every day and I have no 
guilt about that.
    Dr. LeGrande, I just want to thank you for your comments 
earlier about transferrable skills and those critical thinking 
skills that I don't think people have value enough as we are 
preparing young people for the job force, the workforce. Those 
are the things that really identify high performers in the 
workforce, you know, so we--I think we maybe need to reevaluate 
our measure, you know, and do more capstone projects and 
internships and getting students out into the world because 
those are the things that employers have told me in my 
experience that they are looking for.
    I am glad to see that dual enrollment is being included as 
a core part of the conversation in equity and affordability 
today. My daughter started college with a full semester of 
credits as a result of dual enrollment and AP classes taken in 
high school.
    And my own students at Kennedy High School benefited 
greatly from dual enrollment programs through college career 
pathways and Naguatucket Valley Community College and the 
University of Connecticut's early college experience. In fact, 
our UCONN ECE is the oldest continually operating concurrent 
enrollment program in the Nation. I am proud to be from a state 
who has led the field in that area.
    As we continue to have this conversation, I think it is 
important to talk about how we improve dual enrollment to 
better serve students from all backgrounds and income levels 
and effectively scale up these programs by strengthening the 
educator workforce.
    So, Dr. Marwick, in your experience, what specific support 
services should successful dual enrollment programs provide to 
their students, particularly students from families where they 
may be the first in their family to go to college or are not 
having these conversations at home?
    Ms. MARWICK. We are piloting hiring an advisor at the 
college to work with dual credits students in the high schools 
to help them understand how their dual credit leads to a 
college degree and what they have accomplished.
    Secondly, dual credit in high school allows students to 
take a challenging college level course while they still have 
the supports of their high school teachers and advisors around 
them. And I think that is a great way to start college because 
some students have trouble in the first semester adapting to a 
different structure of education.
    Thirdly, I think it's really important that the high school 
counselors helps students get into appropriate dual credit and 
AP classes for them and they also need to reach out to the 
parents of those students and explain what dual credit does and 
does not do.
    Ms. HAYES. Thank you. Also I want to follow up on a 
question that Dr. Shrier asked, started to ask about getting 
teachers who are willing to be dual certified.
    I am someone who pursued dual certification to teach our 
college courses at my school and I can tell you from my own 
experience that the touch point has to be earlier because I 
don't think what people realize is that when you teach a dual 
certification class, you become an adjunct professor of the 
university. Which means that most--often times or all the time 
your masters has to be in that concentration area and that is 
something that many educators don't realize who get masters in 
curriculum or education or academia but not in the core content 
area.
    So I think a valuable route to go is to have that touch 
point much sooner in an educators career to say as you are 
considering your master's degree, these are some of the things 
you need to know if dual certification is a pathway that you 
would like to pursue.
    So my question is do you, can you think of any ways, I 
guess I just answered my question. Of how to incentivize 
teachers to pursue dual enrollment much earlier because what 
ultimately ends up happening or in my experience from what I 
have seen is that teachers then go and have to get a second 
masters in order to then qualify to be a dual enrollment 
certified teacher.
    Ms. MARWICK. You're correct. That is a big problem and what 
we find is as you suggested too many teachers if they have 
masters degrees have them in education. So our school districts 
are trying as they hire new teachers to get teachers to--who 
are already certified for dual credit but I think a bigger 
outreach might be to education programs in universities to talk 
about this issue while students are at the university. They 
need either a master's degree in the discipline or a related 
discipline with at least 18 graduate hours in the discipline 
for entry level, to teach entry level dual credit classes.
    Ms. HAYES. Thank you and my time has expired but I think 
therein lies the problem because if people are not getting the 
information at the beginning of the journey, they've taken 
classes, taken on debt and then have to reroute back in order 
to get on the right path to where it is they are trying to go. 
Thank you. With that, Mr. Chair, I yield back.
    Chairman SCOTT. Thank you. The gentleman from Pennsylvania, 
Mr. Smucker.
    Mr. SMUCKER. Thank you, Mr. Chairman. This has been a great 
hearing. Thank you to all the witnesses, it has been 
fascinating to hear the work that each of you is doing with 
your organizations, your institutions to improve student 
outcomes and improve our higher education system.
    Ms. Long, I would specifically like to take some my time 
and talk--allow you an opportunity to talk just a little bit 
more about competency based education and may have a question 
or two.
    And when I am thinking about education, I look to some--the 
K through 12, some of the school districts in my area who have 
established some really innovative programs that allow them to 
meet the students sort of at their level of learning and then 
they receive almost constant feedback primarily through the use 
of technology where they are getting almost real time feedback 
on the student specific knowledge on the topic.
    And then implementing strategies within the classroom to 
sort of allow students to learn at the pace that they can learn 
and advance at the pace they can learn. They are still within 
the structure of the classroom so sometimes limited by that in 
terms of allowing a student to move beyond that particular 
topic but is that what you are talking about in competency 
based education? Are you talking about universities changing 
the way they deliver education and potentially using technology 
as a part of that?
    Ms. LONG. Yeah. So yes. And I think that's a good example 
from the K through 12 sector and we see more K through 12 
school systems exploring competency based education because of 
that ability to personalize that learning experience. And allow 
learners to pursue education at their own pace and with the 
customization that they need.
    In higher education, it's pretty similar, in the fact that 
we look at common characteristics we would expect to see. 
Obviously the robust assessment but that availability to 
personalize the learning journey to look at say for example 
when they completed a quiz how sure where they of their answer 
or if they're doing an activity and they reflect back on the 
project they completed, you're able to adjust the entire 
learning pathway according to that particular learner which is 
helping to yield the kinds of results that institution are 
seeing in CBE programs.
    So yes, it has that kind of personalization and the ability 
to really take a path that's specific to the needs.
    Mr. SMUCKER. Sure. Thank you. I was particularly interested 
in your proposed demonstration project. How would that look and 
what are--how would it be structured and what are some of the 
outcomes that you would like to see from that? What would you 
like us to be measuring? What would you like us to be looking 
at?
    Ms. LONG. Yeah, absolutely. What we say to our member 
institutions all the time is what are your value propositions? 
What is it that you say you're hoping to achieve with your 
program and now go prove it. Maybe it's the attorney in me but 
I don't believe it unless I see proof of it and so where's your 
proof, right?
    And so if an institution is saying we can allow a learner 
to go as fast as they can go through the curriculum and also 
allow them to slow down when they need time, where is the proof 
that people speed up and slow down? If it's about we can do 
this faster or at a lower cost, where is my proof of cost?
    So we think about a demonstration project we would be 
asking institutions to play by a certain set of rules and if 
they do, they would have the luxury of not having to comply 
with some of the financial aid requirements that make it pretty 
difficult for CBE to really grow and expand.
    In exchange, they would need to collect the kind of data 
that would prove whether or not these programs work and then 
for what learners and in what context, right. So we would look 
at the value proposition. It would be great to have that 
student level data so that we can really drill down 
specifically on what kind of learner did it work for? Was this 
a first gen, were they in their first semester, or was this a 
person at this kind of experiences, is it in this type of a 
program that it works better--
    Mr. SMUCKER. And I am sorry, I am running out of time.
    Ms. LONG. Yep.
    Mr. SMUCKER. But so is it your recommendation or do you 
believe that we would here at the Federal level change the 
rules essentially to allow for that demonstration project so as 
we are looking at HEA, is that a potential opportunity for us 
to do that?
    Ms. LONG. That, within HEA you would create a safe space 
for that kind of innovation to occur with the guardrails so 
what we can really check the outcomes and make sure. I think 
the data is light right now on the effectiveness. That would 
give us time to prove it. It would also give us time to test a 
model that's not based on the credit hour. We would love to 
throw the credit hour but I don't have an alternative tested 
and ready to replace it.
    Mr. SMUCKER. Sure, thank you.
    Chairman SCOTT. Thank you. The gentlelady from California, 
Ms. Davis.
    Ms. DAVIS. Thank you. Thank you, Mr. Chairman, and thank 
you to all of you. I have actually wanted to wait through all 
my colleagues' questions because I think it is really helpful 
and you have all been great in responding.
    One of the things that I think is always important with the 
panel and you have covered so many issues that expand and help 
us see why sometimes programs don't work very well because we 
don't have the services in place to be able to support the 
student, to take them exactly right where they are.
    And so, Ms. Long, you have--I think expanded on the 
competency based education but I wanted to ask first, Mr. 
Gadkaree, and the others, what is the downside of that? You 
know, what should be the concerns that we don't go down a road 
and find out that, you know, we haven't really been as focused 
on outcomes as we could be, that there are some issues that 
whether in the scaling or in the process have been ignored. Mr. 
Gadkaree, could you speak to that a little bit? I know that you 
deal with equity issues.
    Mr. GADKAREE. Sure. I'll start with that. And I'll say 
that, you know, I think the process that Ms. Long was outlining 
in terms of a pilot where we test outcomes really well makes a 
lot of sense.
    I will say that, you know, sometimes there are things that 
are innovative like education technology that if done poorly 
don't do well for students but if done well they do. And, you 
know, there is a recent AEI study on online education 
technology that kind of found that it exacerbates gaps that on 
average it may not be a vehicle for closing those gaps.
    And so I think it's--it's really a question of 
implementation. That's what we were finding in our study as 
well. How can we ensure that these programs are set up in a way 
that promotes high quality?
    Ms. DAVIS. Thank you. And, Ms. Long, you want to comment 
quickly?
    Ms. LONG. I was just going to say that is the exact reason 
why we created a quality framework for CBE programs because we 
had this concern that if institutions with rapid growth came in 
and they did it poorly, it's going to damage learners and it's 
going to damage a movement that has a lot of promise.
    So we really created a quality framework early. We are 
trying to hold institutions to that framework. Do you have 
these eight elements and are you playing it out in this manner 
so that we are not having those kind of disparities that--
    Ms. DAVIS. Yeah, thank you, Ms. Long. I mean, in many ways 
that is sort of something that we need to be thinking about as 
we talk about apprenticeships, as we talk about different kinds 
and how we do that because we, they have to be accountable.
    And I think sometimes when you offer something new 
everybody kind of rushes to implement something without having 
the foundation and you speak to that well.
    Mr., if I could just go back to you for a second too, Mr. 
Gadkaree, because we realize that you haven't had a chance to 
respond as much and I wanted to get your wisdom as well.
    On the issue of Pell grants and dual enrollment, what is 
really critical here is that low income students benefit from 
that because we know they don't have as much exposure in their 
lives and it is very important that there be some focus. Again, 
what concerns do you have, how do we make sure that if in fact 
Pell grants are used for that, that we don't end--we don't have 
programs that students end up paying for but aren't getting 
what they need out of them.
    Mr. GADKAREE. Well, one thing that would be important is 
making sure since we actually even at the community college 
level, even at the four year level, sometimes I have students 
who change their minds about what they want to do and that 
concern also exists of course in dual enrollment, dual credit 
programs.
    So it would be important to make sure that students don't 
use up all of their Pell eligibility before they are able to 
get to a degree. It would also be important to address issues 
around college readiness which is one of the big barriers that 
students might have to in doing dual enrollment programs.
    Ms. DAVIS. Yeah, absolutely and the readiness issue and I 
think there have been a lot of good ideas talked about, 
certainly wraparound services and mentoring is important.
    Dr. Marwick, you talked particularly about the partnerships 
and I am just wondering quickly about the challenges in doing 
that? What is the Federal role? How can we do something 
different perhaps and you have been very helpful in thinking 
about the reauthorization. What is critical to you in terms of 
the Federal role in incentivizing?
    Ms. MARWICK. I don't know exactly how to incentivize these 
partnerships but I urge that we find a way because I know for 
sure that we have better outcomes for our students because we 
are working together and its hard work.
    A number of colleges and high school superintendents have 
come to us and said how are you doing it, what are you doing 
and they've been unable to do it. It takes a lot of effort.
    Ms. DAVIS. A lot of effort, yes. Thank you. In my remaining 
minute I just wanted to put a plug in and I really appreciate 
my colleagues on the other side of the aisle as we are talking 
about advising. I think we need a better infrastructure in high 
school as well as in college for supporting and exposing our 
counselors to the kinds of information that they have available 
that will help our students. Thank you so much. And really 
appreciate your being here, you have been very helpful.
    Chairman SCOTT. Yes, the gentleman from Virginia, Mr. 
Cline.
    Mr. CLINE. Thank you, Mr. Chairman, for holding this 
hearing on innovation and higher education. You have got a lot 
of great examples in the commonwealth to choose from. I am 
glad, I want to thank our witnesses for appearing but I am glad 
we get the opportunity to show off a little bit of Virginia 
innovation.
    And, you know, in Virginia I worked really hard to add to 
that. At the State level we created the online Virginia network 
partnership between Mason and ODU and online Virginia.net where 
people who are pursuing nontraditional degrees can get course 
work online through a common portal, a shared network between 
institutions.
    A lot of times you get competition from higher institutions 
of learning rather than collaboration and cooperation. And so 
encouraging that cooperation is helping Virginia to lead the 
way in innovation.
    But I am very proud in my own district of James Madison 
University, the great program they have called JMU X-Labs where 
students are given real and complex problems from the defense 
and intelligence communities and then they are tasked with 
prototyping solutions and working with the state department and 
other agencies.
    Programs like these simulate work that students may do 
during post graduate employment and Virginia serves as an 
example of innovation and of a statewide community effort to 
better opportunities and access.
    Dr. LeGrande, welcome and I want to thank you for your 
testimony today and the work that you are doing and I want to 
applaud you and VCU for the graduation rates that you are 
discussing today, the fact that low income first generation and 
minority students are graduating at nearly identical rates as 
their peers.
    I know that you through your partnerships with community 
colleges can attribute some of that to that success. What other 
best practices can you speak to that you have implemented that 
helped you achieve these results and specifically to closing 
that gap?
    Ms. LEGRANDE. Well, when we think about specifically 
closing that gap, we have talked about creating the systems for 
guidance and support for those students and using data to 
determine who really needs support early but the other piece 
would be about financial assistance to students who are in need 
and timely financial advice as well as making sure that we have 
a true support system for those students with transition.
    Oftentimes when we think about coming to college we think 
students transition one time from high school to college for 
the first time. But students transition year after year. They 
are constantly assessing what is the purpose of this education 
and why am I here.
    And so it's important that we have experiences along the 
way that help students not to just develop those competencies 
that we are talking about but to be able to articulate what is 
this college degree teaching me? And what product do I have 
that allows me to showcase that skill?
    And so these applied learning experiences we really believe 
have contributed to our higher graduation rates because 
students are now connected and invested in their education and 
they have a tangible product of experiences to showcase 
employers about what they have learned.
    Mr. CLINE. Are you encouraging externships, programs 
outside in cooperation with career services that are giving 
students a real world example of how they can use that 
knowledge in the workforce and actually make money with that 
degree when they graduate?
    Ms. LEGRANDE. Yes. Externships, internships, undergraduate 
research, you know, we have even found how we can leverage work 
study opportunities for example to help students do 
undergraduate research.
    The greatest challenge that we find in that though while we 
know that these experiences are important is that we find a 
vast majority of our students need to work. And when they find 
themselves competing with interests of participating in this 
internship that is often times unpaid, and taking a paid job 
they go with the paid job.
    And so we are trying to identify ways to help incentivize 
for students to take the opportunity for that hands on learning 
and making difficult choices.
    Mr. CLINE. I know this might not be your department but is 
VCU being aggressive in their attempt to cut costs and not just 
to paper over the costs of providing that degree but all 
actually to reduce costs internally, you know, dropping courses 
that aren't used, shedding some of the maybe excess in the 
administrative departments, focusing on classroom expenses, 
things like that to help make the cost of education more 
affordable?
    Ms. LEGRANDE. Yes. In fact when I mentioned the fact that 
we have been able to raise our institutional aid over the past 
8 years, it has been largely about the institution having to 
make--having to make some hard choices, right.
    It's not just been about increasing revenue through 
enrollment and tuition gains but really trying to find 
efficiencies across the institution. Just in fact in this last 
year in an effort to ensure our commitment to our priorities 
and increasing institutional aid, we made about $5 million in 
budget cuts. And identifying efficiencies and place where we 
could reallocate funds to really invest it in our students 
understanding that college affordability is one of our highest 
priorities as well.
    And in this year, we were able to partner with the general 
assembly in Virginia, thank you to our general assembly to be 
able to hold tuition at a zero percent increase. And so tuition 
is flat because the State identified resources to invest in the 
State institutions, the Virginia public institutions and that 
partnership so that students now have a predictable tuition 
rate for the next year.
    Mr. CLINE. It is truly a partnership. Thank you, Mr. 
Chairman.
    Chairman SCOTT. Thank you. The gentlelady from 
Massachusetts, Ms. Trahan.
    Ms. TRAHAN. Thank you, Mr. Chairman. Thank you to all the 
panelists, this has been very informative. So before running 
for Congress, I was in public service for about a decade and 
then I worked in the tech industry for another 13 years and I 
guess my experience in both sectors taught me that we can 
definitely do a better job leveraging technology to identify 
issues and improve outcomes in any system. Technology like 
predictive analytics certainly allows our leaders to better 
understand and address the individual needs of students.
    And I believe this technology is particularly important 
because today's students hail from increasingly diverse 
backgrounds, communities and experiences and too often find 
themselves adrift in a system that wasn't designed to support 
them.
    I think, Dr. LeGrande, you gave great testimony about the 
data that you used to improve completion rates at VCU. I am 
really wanting to probe on more of those types of examples.
    And, Mr. Gadkaree, I am wondering if you can share with 
this committee and it is always open to anybody who can add to 
it, what promising models you have seen nationally when it 
comes to leveraging technology, predictive analytics or 
anything else to improve some of these student incomes--
outcomes, outcomes.
    Mr. GADKAREE. Sure, thank you. Well, Georgia State has been 
a leader in terms of a number of innovations to close their 
equity gaps and increase graduation rates and they have been 
using predictive analytics to help them in their advising 
models and to try to figure out when students might be in 
trouble, what might be barriers that the institution has 
created perhaps inadvertently, and taking those barriers down. 
So I think that that's a good use of paring technology with 
some of the people who can help in advising and support and 
keep students on track.
    Ms. TRAHAN. Great. Anyone else?
    Ms. MARWICK. I would just say that we are moving, we have 
moved to a case managed advising program and we were able to 
get a Title III grant which allowed us to purchase 
technologies. We have redesigned the student portal. We--so 
that students can see their progress towards degree completion. 
They all have an electronic plan. Their advisor can also see 
that.
    They can run a program called Degree Works to see how close 
they are to completion and if they change their major, what 
will that mean towards getting that new degree? They can do 
that themselves.
    We have a starfish early alert system that lets faculty 
flag students to the advisor who is--are struggling in class at 
four weeks and eight weeks in the semester. And we are using 
predictive analytics to note when a student may be going off 
the path, may be getting themselves in trouble and advisors 
reach out proactively to those students to help them.
    Ms. TRAHAN. Great, thank you. Any--
    Ms. LEGRANDE. We have identified at VCU a few things. One 
of the things is in addition to the academic support system 
that our students really enjoy engaging with the technology 
because the data is accurate, it's on time and they can access 
it at 2 in the morning.
    Ms. TRAHAN. Yeah.
    Ms. LEGRANDE. And so one of the things that we have really 
thought about in engaging is how can we use the technology to 
influence student behavior and so we have launched an app 
through our predictive analytics tool that allows us to nudge 
students at the right time.
    Instead of sending students an email communication with 10 
steps that says do all of these things, we can nudge them and 
say we need you to complete this one step. You've been selected 
for verification for example on your financial aid application. 
Complete this one step and you're 90 percent of the way there. 
And those nudges can help us improve our student behavior.
    Ms. TRAHAN. Yes.
    Ms. LEGRANDE. Right, to help them move through that 
process. Another piece of technology that we are implementing 
that we are excited about this year is really connected to 
early indicators for at risk populations.
    So for example, class attendance is important, right. In 
order to make good grades you need to go to class. But 
oftentimes at large universities, faculty are unable to take 
attendance, right, regularly.
    So we are implementing new technology to use GPS software 
to really understand where our students are in proximity to 
class. And that data then feeds in, will feed into our 
predictive analytics software really to inform advisors to help 
students understand the importance of going to class just as 
getting early grades from faculty and indicators but to 
identify possibly students are homesick and they are not 
leaving their dorm room.
    And so all of those cognitive and non-cognitive aspects of 
the student experience, leveraging the technology to inform the 
conversation is important.
    Ms. TRAHAN. Great. Thank you. I am, I had one more question 
but I think I am going to be respectful of time. Thank you so 
much.
    Chairman SCOTT. Thank you. You are setting a new precedent. 
The gentlelady from Michigan, Ms. Stevens.
    Ms. STEVENS. Thank you so much, Mr. Chairman, and thank you 
to our distinguished panelists for joining for today's hearing. 
We are so proud of you and so delighted to engage in this 
conversation.
    Before being in Congress, I was a workforce development 
professional and helped to spearhead STEM education initiatives 
particularly in the digital manufacturing and design technology 
space where I helped to launch along with the assistance from 
the Federal Government, the Manufacturing USA Program, the 
country's first online training program specific to digital 
manufacturing design technologies that supported credits in 
working with universities and university partners so I love 
this idea about innovating and meeting students where they are 
at to complete their post-secondary degrees and what so many of 
you have been a part of.
    I represent a district in southeastern Michigan and college 
promise programs which cover student's tuition and fees have 
become increasingly popular in recent years. Students in 
Michigan have been given incredible opportunities through the 
Kalamazoo Promise and the Detroit Promise.
    And college promise programs do a great job of expanding 
college access but not all of them address college success when 
students enroll in college. And research done by the MDRC in 
Detroit has found that adding evidence based support services 
such as coaching and financial incentives on top of existing 
promise programs is an effective way to help students not only 
enroll in college but stay in school and accelerate their 
progress toward earning a degree.
    And so, Dr. Marwick, I would love to ask you what impact 
has the Harper College Promise Scholarship had on students and 
would it be useful to provide additional support services to 
Harper College promise students?
    Ms. MARWICK. The first Harper College promise class begins 
in the fall. We started registering students getting them to 
sign up for it when they were freshmen in high school. So the 
first students have gone through four years of high school.
    We asked them to earn the scholarship by doing a couple of 
things, having really good attendance in high school, doing a 
little bit of community service, taking rigorous college high 
school classes and being college ready when they graduate from 
high school. We will see, we have 600 students still eligible 
that we expect to enroll next year.
    As far as the supports, absolutely. They would be very 
essential. We probably--we hope the students have in our 
promise program have habits of mind through the promise program 
that will make them successful at any college.
    The--we have used 1 Million Degrees in the Chicago area 
which is very much like what is being done in the Detroit 
promise ASAP and what was done in some of the Ohio schools.
    We have found and University of Chicago Urban Labs is doing 
a controlled randomized study of the outcomes and we still need 
to wait a couple years to see but right now we have 
significance in graduation rates, significance in persistence. 
And Harper College has found we have a 60 student per advisor 
ratio in that and students in the program are also given $250 
in incentives three times during the college year if they have 
done all the right things that they were supposed to do. See 
tutoring, attend your classes, meet with your advisor, et 
cetera. We have had really good outcomes.
    Ms. STEVENS. Yeah. Well, I and I admire and just love the 
work that all of you do so much and I was just wondering if we 
could kind of open this up to the rest of the panel to chime in 
about designing support programs or supports that go beyond 
just covering the cost of tuition. We can start with you, Dr. 
LeGrande.
    Ms. LEGRANDE. So at VCU we do have some support systems. We 
mentioned the food pantry for example and off campus support 
services to really help students with housing insecurity to 
connect them to the right resources as well as Federal and 
state resources to help students who find themselves in 
emergency circumstances.
    There is one unique institution that has a program, a food 
scholarship program for example in Texas. That's partnered with 
the food bank and it allows students to get a food scholarship 
that connects with the--based upon the number of credit hours 
they're enrolled in the institutions. And they use that food 
scholarship in the food pantry on their campus where it's a 
declining balance. That food pantry is just as fancy as a 
grocery store. They have produce and canned goods and meats.
    As we think about the complications we have with our 
student population and needing resources beyond just tuition 
and fees, we won't be able to just food pantry our way out of 
this. Right. We have to think of new innovative strategies that 
really show the students that we have support mechanisms for 
them on our campus, and we are connected to the community and 
so I think the more creative we can get as institutions allow 
us to do that.
    Ms. STEVENS. Well, I am over time but I just want to thank 
you, you all and I would also now like to just ask for 
unanimous consent to enter into the record an evaluation of the 
Detroit Promise Path published by the MDRC, a research 
organization known for its rigorous evaluations which shows the 
impact and importance of approaches that combine financial aid 
and wraparound supports. Thank you all. Thank you, Mr. 
Chairman.
    Chairman SCOTT. Without objection.
    Ms. STEVENS. I yield back the over time. Thank you.
    Chairman SCOTT. Thank you. The gentleman from Pennsylvania, 
Mr. Mueser.
    Mr. MEUSER. Thank you, Chairman Scott, and thank you, Dr. 
Foxx. Thank you all very, very much for being here with us 
today.
    I did serve on Pennsylvania State System of Higher 
Education PSSHE where we did focus very much on affordability, 
accountability, transparency, and innovation. And that 
certainly continues after my departure.
    There is a serious need as we are discussing here for 
innovation in higher ed, traditional higher education is not 
working as nearly as well as we would like to it be. The 
completion rates are not necessarily--not satisfactory. Costs 
are extremely high. Some would phrase through the roof.
    For those who are graduating, many are not skilled, not 
ready for the jobs that are available. Graduates and those who 
don't graduate are very much in some deep debt very often. The 
skills gap does exist as our country we do have 7 million 
unfulfilled jobs. So there is certainly work to do.
    My questions today will focus on the importance of 
accountability from an academic and financial advising 
standpoint. And ensuring that any innovation in higher ed 
continues to be accessible to students in rural communities as 
my district, Pennsylvania's 9th, is relatively rural although 
we have really some terrific higher education schools both 
traditional and career institutes.
    So my first question will be based upon I have concerns 
that many college students are not well informed about how the 
decisions they make can have long lasting financial impacts. 
For example, just taking an extra elective or two as we all 
well know can derail a student's path to graduation by a 
semester or more which of course is very, very costly.
    PSSHE has a focus and a concept of holistic advising.
    A student centric approach that accounts for all aspects of 
a student's academic experience, financial aid, what their 
major path is, are they fulfilling the requirements for that 
major? Are they doing it in a timely manner? If they are not, 
are they being informed in an honest way? Is even perhaps the 
payer, not necessarily parents, but who the payer is, are they 
being notified--perhaps there was a waiver allowed to be signed 
that they could be notified if they are not fulfilling the 
requirements that were being paid for which I think would, 
could create a higher level of commitment.
    So, Dr. LeGrande, in your testimony you talked about VCU's 
intrusive advising model which does sound somewhat familiar and 
I read the details to the holistic advising. Can you describe 
what you are doing there a little bit further than you have and 
regarding this model and the benefits that are coming from it?
    Ms. LEGRANDE. Sure. Through the intrusive advising model, 
we really focus on two groups that we are leveraging. One is 
the intrusive advising directly to the student, right. 
Identifing what their needs are early on and connecting them 
with resources and we use the tool that we talked about in the 
written testimony, the Major Maps to help students do that. 
Right.
    So in addition to just the degree plan, right, the outline 
of courses a student needs to take, how do we ensure that 
students are able to maximize this four years to participate in 
all of the opportunities including pursuing a minor by 
leveraging their financial aid. And so an advisor is able to 
have that conversation with students early on about lets plan 
out these four years.
    That Major Map we found because it works backward from the 
career plan has really been interesting to parents. Because it 
helps them see exactly what the plan is for their students for 
the next four years. And they have then found that they are 
able to have a more intellectual conversation with the student 
who is interested in studying psychology, right. And that way 
the parent understands that there are career paths available 
beyond just being a psychologist.
    The second group that we work to leverage with our advising 
is faculty. Faculty buy in is important in this intrusive 
advising model for a few reasons. One, students spend 60 
percent of their time with faculty and so they are really most 
informed about a student's behavior in the classroom as far as 
academic ability.
    So for example in courses where we have high D, W and F 
rates, we work with the faculty to understand what are some of 
the challenges the students are experiencing, understanding the 
syllabi so that the advising conversation can help inform the 
student and help them prepare. So those two groups we are 
really working with through advising.
    The last thing I would say is that it is truly a 
partnership. All right. Engaging the students in that effort, 
advising is not just giving a student a map. It is really 
helping them understand what their interests are and if they 
don't know, then we are giving them the tools to explore that 
through career inventory tools that help them understand what 
their interest are and what possible career options and help 
them making choices if they're not quite ready.
    But by the time they reach 30 hours we really want students 
to have a pathway in mind because we realize that four years 
will be over before they know it and we want to make sure that 
they're maximizing their introductory courses into applicable 
majors to end with a fruitful career.
    Mr. MEUSER. Wow, that is terrific. I can see why VCU is 
doing so well. Thank you very much for your testimony and, 
Chairman, I yield back
    Chairman SCOTT. Thank you. The gentleman from Maryland, Mr. 
Trone.
    Mr. TRONE. Thank you, Chair, Mr. Chairman, and Ranking 
Member Foxx for your leadership in looking for innovative 
ideas.
    I want to reiterate I really appreciate the comments by 
Ranking Member Foxx and I couldn't agree with more what she had 
to say and especially struck by the 58 percent. That is just so 
unacceptable. It is mind boggling.
    I serve on three college boards and I can see it firsthand. 
It is disappointing. You know, I grew up on a farm and the farm 
went bankrupt and because of that, I went back to get a 
graduate degree to move on and Pell grants were there. And were 
able to pay them off and I got through and that led to moving 
forward in life.
    Now with Pell grants picking up 75 percent down to 30 
percent, that opportunity is just not there. So we have to keep 
thinking of innovative ideas and that is why we are here today.
    And the dual enrollment I think is a really good step in 
that direction. Over 10,000 folks in Maryland work in dual 
enrollment at our high schools. And the question, the problem 
is that the enrollment seems to benefit those in the higher 
income strata and they benefit with the college attendance and 
they participate. And the folks in the lower incomes they don't 
do as well.
    So it has become more focused for white, for middle to 
upper income. So this racial disparity in dual enrollment is a 
missed opportunity. And we need to find models to close this 
equity gap because these programs clearly lead to higher 
attainment of low income students.
    So, Mr. Gadkaree, how can policy makers and other 
stakeholders create a system that fosters more equitable 
treatment for dual enrollment?
    Mr. GADKAREE. Sure. I'll start this and I suspect a couple 
of my panelists might have other thoughts as well. I think that 
certainly two of the challenges in doing so are one is around 
affordability and resources for both the students and the 
districts and college that are involved.
    We as we mentioned or as I mentioned earlier, some of the 
districts and community colleges that have the most students of 
color have the fewest resources. So I think that is one element 
of it.
    And then college readiness is certainly an issue as well 
and one of the compelling models that Dr. Marwick has talked 
about is having high schools and colleges work together to try 
to address that dev ed need early on so that students can 
become college ready and then take advance of some of these 
early college opportunities.
    Mr. TRONE. Go ahead.
    Ms. LEGRANDE. One of the models that we have employed at 
VCU is a partnership with specific high schools for dual credit 
that align into a particular pipeline.
    So for example, our health services academy really seeks to 
take students who come from lower income communities to help 
them understand and identify broad based careers in the health 
field.
    But that dual enrollment courses really help them beyond 
just taking college credit, they also get college preparedness 
skills, they explore health careers and we have seen an 
increase in students participating in those programs and those 
students actually continue on to higher education, earn 
baccalaureate degrees, some in the STEM health professions, 
several in the health connection, health field and then go on 
to pursue graduate degrees.
    So as we think about dual enrollment, there are 
opportunities for us to impact communities by partnership with 
specific high schools as well.
    Mr. TRONE. One more quick area I want to touch on. Every 
year three is 600,0000 folks that should be graduating and they 
would have graduated but instead they are coming out of 
incarceration. And they are average education fourth, fifth 
grade.
    And I know there is a lot of innovative, high quality 
programs around the country but this is an area that I am 
focused on and I think is of great importance. Do you know of a 
particular institution states where you have really seen a 
connectivity point with the community colleges and business 
also because when they are coming out, if they have got some 
education, if they don't move to a job, they are going right 
back in again. The cycle goes right around.
    And 60 percent one year later don't have a job. Have you 
seen any best practice that I should dig into more?
    Ms. LONG. I would encourage you to take a look at Sicklier 
Community College. I included them in my written testimony, the 
work that they are doing in prisons, working in particular in 
their CBE offerings and thinking about how in those last--that 
last period of time of incarceration how do I get them prepared 
for a career in which they are going to get hired. Right. We 
know that a lot of employment opportunities will be closed to 
those that are coming out of that incarcerated environment.
    I was at Lipscomb University, we also did a program at the 
Tennessee Prison for Women in which our competency based 
program was offered to inside students. Our outside students, 
students from our campus would go once a week and collectively 
we had class together.
    Our outside students, the folks that are on our campus 
everyday as traditional learners were really paying for our 
inside students to be able to get that education. We have seen 
incredible results from that.
    A number of those learners initially we started only as an 
associate's level. I got a letter in the mail from one of the 
inmates asking for the opportunity to bring our baccalaureate 
program there and they did that. And they've graduated and with 
their CBE base degree and as they're getting back out in the 
workforce, they're getting those jobs that they need which we 
hope will lead to a reduction in recidivism.
    So encourage you there's a couple there I would say 
Sinclair, I would also ask you to take a look at the LIFE 
Program, L-I-F-E, at Lipscomb University as well as two models.
    Mr. TRONE. Thank you.
    Chairman SCOTT. Thank you. The Ranking Member, Dr. Foxx.
    Mrs. FOXX. Thank you, Mr. Chairman, and again I want to 
thank our witnesses for being here today. Dr. Marwick, I 
appreciate the comment in your testimony that we must make sure 
dual credit is an opportunity to take a college course in high 
school and cannot be a college credit for high school course.
    Academic rigor is critical to preparing students for 
college level course work and the jobs that follow. To what 
extent do you interact with your accreditor to maintain the 
quality of concurrent course offerings and do you have any 
recommendations for how accreditors can help you expand college 
offerings in high school settings?
    Ms. MARWICK. Thank you for bringing that up. I feel really 
strongly about the standards for dual credit courses.
    Mrs. FOXX. And I do too.
    Ms. MARWICK. We work very closely with the high school 
teachers. They come and meet with the college faculty, they 
talk about the syllabi and then we follow dual credit students 
who come to Harper College and take sequential courses. And we 
have found that they do as well and often better that the 
typical students that test into those courses. With our 
accreditor, we make sure that we follow the same standards. We 
treat our dual credit high school teachers as if they are 
adjunct faculty on our campus. Our HR office has all of their 
credentials, their transcripts. We use the same credentials for 
teachers to teach whether it is on our campus in that course or 
whether they are teachers in the high school.
    Secondly, any prerequisites that are required or showing 
that you're college ready for the students, every student in 
that course must have those, met those standards and they must 
show evidence of that. And we, that is what our accreditor 
suggests.
    Also assessment of student learning. If there is a final 
exam or other assessment, it's given to every section of the 
course on campus then that also must be given in the high 
schools as well. And we look at the outcomes of those 
assessments and then the teachers and the faculty get together 
because we are giving the same on campus and they share 
effective practices.
    Mrs. FOXX. Thank you. Ms. Long, I am encouraged that C-BEN 
is dedicated to providing a high quality learning experience to 
students. To what extent do accreditors take into account your 
quality framework guidance and are there particularly, a 
particular accreditation provisions in statute that make it 
needlessly difficulty to start and grow CBE programs?
    Ms. LONG. Yes, thank you very much. So with accreditors, we 
invited the creditors to the table early on as we were 
designing the quality framework. We continued to have 
accreditors who will come to convenings, who will breathe into 
kind of the way we are thinking about best practices as a 
national network.
    So I think we are really trying to continue to foster good 
relations with all the accreditors. As you know, every one of 
them require something a little bit different and so you can 
see patchwork of different approaches around this Nation and 
how different schools have different models and one might 
require a substantive change as you know about, another one 
might not. And so there is a lot of differences from one 
accreditor to the next. Right.
    When CRAC issued its consistent definition of what CBE is, 
I think that was very helpful. Before that, they all kind of 
looked at it in a little bit different way and how they defined 
it so that consistent definition was helpful.
    Our member institutions have asked for and we will be 
responding at our next National convention with time just by 
regional accreditor and we are asking our regional accreditor 
to join us so that the can better illustrate.
    We are looking for one pagers that would help capsulate 
what is it that you really require? Because there is a lot of 
institutions who find themselves confused about is this a 
substantive change or is this not? Do you really disincentive 
this innovation or are you really in support of it? I hear one 
thing from other institutions but maybe I hear something 
different from you.
    So we are getting ready to do a road trip to all of our 
regional accreditors, myself with a board member from each of 
those regional accrediting bodies to try to work on the 
consistency of language to make it clearer for institutions 
what the expectations are and kind of that accreditor view on 
CBE innovation. Does that help?
    Mrs. FOXX. Yes. Thank you. Mr. Gadkaree, a footnote in your 
testimony highlights four programs, CUNY ASAP, 1 Million 
Degrees, Arkansas Career Pathways Initiative and Stay the 
Course proven to double or triple graduation rates for 
students.
    Could you tell us very quickly how one or two of these 
programs operate and what evidence based practices they engage 
in to promote student success?
    Mr. GADKAREE. Sure. And let me talk about Arkansas since 
that's the one we probably heard the least about. In Arkansas, 
they have served 30,000 students over a decade using TANIF 
dollars.
    It's a program that's running in 22 community colleges 
across the state and they have intensive case load mentoring 
and advising on the order of 40 to 80 students per caseload. 
They provide employment support services like resume help. They 
provide financial support for text books, calculators, and 
supplies and they provide some financial support for childcare 
and transportation so it's again this mix of intensive advising 
and some financial supports.
    Mrs. FOXX. Thank you, Mr. Chairman, and thanks for your 
indulgence.
    Chairman SCOTT. Thank you. The gentlelady from Nevada, Ms. 
Lee.
    Ms. LEE. Thank you, Mr. Chairman, and thank you Ranking 
Member Foxx for having this important hearing today about 
improving equity.
    I have spent my career working in the K to 12 realm with 
wraparound services which is why I am particularly interested 
in talking about that. You know, Nevada the majority of our 
students in our public school system live in poverty so having 
that type of program where we provide robust wraparound 
services is incredibly important.
    And now we are finding that as those students move on to 
college and we have one of the most diverse higher ed programs 
in the country, continuing those wraparound services is 
important to their success.
    A specific program that we have talked about CUNY's ASAP 
program is as we know innovative and effective model that 
provides those wraparound services. And an evaluation by MDRC 
shows that ASAP nearly doubled graduation rates for students 
and at a lower cost per degree as well. And recent evaluations 
show that it is replicable, that we can replicate that model in 
Ohio for instance.
    And in my home state, I am proud of the Napontla program 
which is helps our first generation college students navigate 
their college experiences by accessing those key wraparound 
resources, community services and programming. This model is 
effective because it leverages that experience and expertise of 
shareholders but also helping walking students through their 
education program.
    And, Mr. Gadkaree, I wanted to ask you, what do you think 
the biggest barrier is to expanding this model to all community 
colleges? Or all colleges for that matter?
    Mr. GADKAREE. I think the biggest barrier is cost. We are 
seeing that these programs and we have talked about four of 
them, they are probably about $1500 to $2500 per student per 
year. Some might fall a little bit outside that range.
    But that is just a cost that private philanthropy is not 
going to be able to support at scale so it's going to have to 
be up to either states or the Federal Government to figure out 
how do we support that cost?
    I'll note that cost gets recouped in the MDRC CUNY ASAP 
model, they actually produced more graduates per dollar than 
students outside of that program because graduation goes up so 
much that it's more effective from that standpoint.
    Ms. LEE. And yes, speaking of our Federal role, you 
mentioned that there could be a role. Do you have any specific 
ideas in particular?
    Mr. GADKAREE. I think that given this body of evidence, a 
program that is scaled up evidence based approaches around 
community college supports, perhaps some kind of funding that 
was kind of in that vein, it may be along the lines of I3 or 
something like that, but I don't know exactly what it would 
look like unfortunately.
    Ms. LEE. Okay. I would like to ask unanimous consent to 
enter in the record this MDRC evaluation.
    Chairman SCOTT. Without objection.
    Ms. LEE. And I agree, I mean, having the evidence is so 
important to making sure and we know that this type of 
investment definitely has a return on investment.
    Ms. Long, I want--I appreciate your willingness to share 
your assessment on what we know and what we still don't know 
about competency based education. I have had the opportunity to 
learn about Western Governor's University in Nevada. It is a 
model that's attracted over 3300 current students and 3,000 
alumni in my State.
    And I believe that when we explore innovation and different 
models within our higher education system, we need to consider 
how these will effectively serve the students of the future. 
Could you share a little bit more about the variation of CBE's 
impact on cost and time that it takes students to complete 
their degree?
    Ms. LONG. Yes, and again what we would see is mostly 
institutional case studies about, you know, specifically how 
has that happened. In my written testimony, I include 
information from Salt Lake Community College that's just 
redesigned 24 of their traditional programs into a CBE format 
and I have shared with you kind of the results that they saw 
both with time but also the cost as well as salary data from 
learners that completed those programs and where they saw 
salary gains.
    So there is data from Texas A&M Commerce, a number of 
institutions that show that they're actually saving both cost 
and time. What I would point out is that there are a lot of 
different models of CBE at the country. Western Governors is 
probably one of the most well-known, obviously the largest of 
the models.
    But various programs design their CBE according to what the 
specific needs of those learners are that they're wanting to 
reach. Some of them are online, some of them are not. Some of 
them target a traditional 18 to 24 year old learner and the 
vast majority of them target something that's not that. Right.
    And so you see a huge wide model variation around the 
country. And because of that, we also see very different 
results. Some aren't as saving as much on time because they 
want their people to slow down when they, you know, really need 
that. Others are seeing, you know, more advances in money 
because they're using a subscription model.
    So I'd encourage you as you all begin to really look at the 
outcomes data to think about what's that model because we are 
still trying to build that data that says if you have these 
elements that's what's driving this, you know, outcome result 
or this set of elements, that's what's getting this outcome 
result if that makes sense.
    Just want to be transparent. I don't have great, you know, 
cross multiple institution data on what those results look 
like, just institutional case studies.
    Ms. LEE. Great. Well, I look forward to working together on 
that.
    Ms. LONG. Absolutely.
    Ms. LEE. In the future. Thank you. I am past my time. Thank 
you, Mr. Chair.
    Chairman SCOTT. Thank you. I recognize myself now for 5 
minutes. And asking, Dr. Marwick, you were asked about the 
$40,000 debt that people come out of community college with. Is 
that typical?
    Ms. MARWICK. I don't know any community college where 
people come out with $40,000 of debt. At Harper College, you 
can get a two year degree for about $16,000. Also we give 
students advice not to take loans unless they have to and we 
have a less than 8 percent default rate now.
    Chairman SCOTT. Thank you. Mr. Gadkaree, you mentioned the 
programs that you talked about had been studied on randomized 
trials and it significantly increased graduation rate. Did you 
talk about how much these programs cost?
    Mr. GADKAREE. Yeah, the costs range from about $1500 to 
about $2500 per student per year. So that's a pretty 
significant investment but again it appears to pay off.
    Chairman SCOTT. Thank you. Ms. Long, in developing the 
competencies, is that a--the each institution does their own 
competency?
    Ms. LONG. Yeah, usually they would start with some sort of 
a competency framework so they're going to look and see is 
there already a framework in existence? So you might look at 
the Department of Labor building block model. You might look at 
DQP for example, the Degree Qualification Profile.
    They'll look first to say is there an established set of 
competencies for this particular degree or credential that we 
can leverage? Then they would typically involve employers to 
breathe in with faculty what is it that needs to go into the 
composition?
    They'll benchmark against other institutions as well to try 
to keep create that list.
    Chairman SCOTT. And the oversight is with the accreditors. 
They will accredit the list of competencies that you've 
created?
    Ms. LONG. Absolutely. Absolutely. You explain to the 
accreditor how you derived your list of competencies, what is 
that based on.
    Chairman SCOTT. And how do you determine how many credits 
you get for certain competencies?
    Ms. LONG. Yes, so the regulations would require us to think 
about that in the context of a traditional offering. So you're, 
you have to what we call course walk that or cross walk that 
back to what you would offer in a normal program. So if you 
thought about in a typical communications class, you might have 
a module that's on written communication, oral communication, 
on these different areas, how much time is spent, and that 
might be the way in which an institution would decide to 
allocate--
    Chairman SCOTT. And when you allocate--
    Ms. LONG.--competency work
    Chairman SCOTT.--when you allocate the credits, does the 
accreditor get to oversee that?
    Ms. LONG. The accreditor, they would be given the 
information on how they set that information, that would be 
given to the accreditor during a substantive change process.
    Chairman SCOTT. And if you come in and show your 
competencies the first week, do you have you pay for the whole 
course?
    Ms. LONG. It depends on what kind of a model but typically 
if you're on a subscription model you would just keep going to 
the next model to the next competency to the next to the next 
if it's on a subscription model.
    Chairman SCOTT. Does that mean you have to pay for the 
whole course?
    Ms. LONG. You are paying for that period of time of 
learning in a subscription model. So you're paying say for 
example a six month model and it is a learn as much as you can 
during that six months. So you're trying to demonstrate as many 
competencies as you can.
    So it's not like there's a course per say that you're 
paying for. You're paying for that block of competencies. It's 
one of those places in which language can get in the way, 
right.
    Chairman SCOTT. And so but if you--if you show that, if you 
show all of those competencies the first week, do you have to 
pay for the whole course?
    Ms. LONG. You would be then be opened up to new content 
that you could continue to keep moving onto new competencies.
    Chairman SCOTT. Dr. LeGrande, can you say a word about the 
effect that TRIO programs have on the pipeline and completion?
    Ms. LEGRANDE. Sure. TRIO programs are important for 
pipeline and completion. TRIO has two suites of programs, 
college access based programs that affect the recruitment of 
students in preparation of underrepresented populations of 
students, low incomes, students of color, and students from 
disadvantaged backgrounds.
    Preparing them for college preparedness to come to the 
institution and then once they get to the institution, there's 
a suite of programs, TRIO support services programs. We have 
TRIO support services at VCU that really complements that 
wraparound services in addition to that academic advising model 
to make sure those students have everything they need. In fact, 
programs like TRIO programs create really good evidence based 
approaches for institutions in a small scale because those 
populations are typically 1 in 200 students that then the 
institution can think about how do we take this same evidence 
based approach and then apply it more broadly across the 
population. We have seen those evidences at VCU and in other 
populations, other institutions as well.
    Chairman SCOTT. Thank you. This ends the questioning.
    I remind my colleagues that pursuant to committee practice, 
materials for submission to the hearing record must be 
submitted to the committee clerk within 14 days following the 
last day of the hearing. Materials submitted must address the 
subject matter and only a member of the committee or invited 
witness may submit materials for inclusion.
    Documents are limited to 50 pages each. Documents longer 
than 50 pages will be incorporated by way of an Internet link 
that may or may not be--work in the future.
    I want to thank our witnesses for participation today. What 
you have said is very valuable and helpful as we develop the 
Higher Education Act reauthorization. The committee may have 
additional questions for you which we will submit in writing 
and we would ask you to respond in writing. The record will be 
held open for 14 days in order to receive those responses. I 
remind my colleagues that pursuant to practice, witness 
question for the hearing must be submitted to the majority 
staff within 7 days. The questions submitted must address the 
subject matter of the hearing.
    I now recognize the Ranking Member for her closing 
statement.
    Mrs. FOXX. Thank you, Mr. Chairman, and I want to thank our 
witnesses for their expert testimony.
    Previous hearings this Congress exposed how the post-
secondary education system is falling short. 1.5 trillion in 
outstanding student loan debt. Fewer than 60 percent of 
students complete their programs in six years. Fewer than 2 in 
5 managers believe graduates are prepared for a job in their 
field of study.
    Wow, do we need competency based education. All education 
in my opinion should be competency based. Many programs across 
all sectors of post-secondary education are failing to prepare 
students to succeed in getting a job that will help them repay 
their loan debt and rise up the socioeconomic ladder.
    Bold reform is necessary to reverse these trends and the 
hearing today highlighted a few ways colleges can better serve 
their students.
    Dual enrollment can increase graduation rates and reduce 
costs. Intrusive counseling keeps students on track to pursue a 
degree--pursue a career related to their academic program. 
However, I do wonder as we sit here and talk about the amount 
of handholding that is required to do as to whether or not we 
are dealing with adults or not. The term helicopter college 
comes to my mind as I hear the comments being made.
    CBE can provide nontraditional students a quicker and less 
expensive route to gain skills and enter the workforce to fill 
in demand jobs. Earn and learn opportunities help students 
apply lessons in the curriculum--in the classroom to real world 
jobs.
    I do think we missed an opportunity today to learn more 
about some of the innovations that are happening outside what 
we call traditional higher education system.
    There are providers working to give students skills that 
are in high demand with employers. Some of these providers are 
working with colleges, some are working with employers, but all 
of them are turning the idea of quote higher education end 
quote on its head in a positive way for learners.
    We must broaden--therefore I think we must broaden our 
ideas of what post-secondary education looks like to truly meet 
students where there are in their lives.
    At the same time, Congress must encourage innovation that 
helps all students regardless of their background. It does not 
shirk away from providing a high quality learning experience.
    The Federal Government does not have all the answers. And 
policy makers need to have a little bit of faith in the good 
actors and creative teachers--thinkers on the ground to try new 
methods to serve students currently being left behind.
    I wonder what is the purpose of publicly funded colleges 
and universities if not to meet the needs of the community. Why 
should we ask Federal tax payers to pay in some states for what 
other states are providing with state funding? Such as dual 
enrollment, such as helping faculty gain a Master's degree in 
the field without saying why should Federal taxpayers again be 
paying for that?
    There will always be an unmet need because the higher we 
raise financial aid, the higher are the costs for attending 
colleges and universities. We will never get rid of the unmet 
need as long as Federal tax payers are paying for people to go 
to college.
    I want to thank Chairman Scott for beginning this 
bipartisan process. I want to affirm my commitment to 
continuing this conversation to reform the HEA in the best 
interest of students and taxpayers. And I yield back, Mr. 
Chairman.
    Chairman SCOTT. Thank you. I now recognize myself for the 
purpose of making a closing statement.
    And comment that, Dr. Foxx, you mentioned the--a lot of 
programs that are short term that can lead to a good job. We 
are going to be dealing with those as we reauthorize the WIOA, 
and that is up for reauthorization next year so I look forward 
to working with you on that to make sure that those short term 
programs that can lead to a--that aren't leading to a degree 
but can lead to a good job are fully available.
    I would like to thank again the witnesses for joining us 
today in the discussion on innovative strategies to advance 
quality and equity in higher education. This hearing was an 
important opportunity for us to understand promising approaches 
to higher education that can help today's diverse students 
succeed.
    It is also a reminder that we must ensure that innovation 
closes rather than exacerbates existing equity gaps and higher 
education.
    Today marks the last of five bipartisan hearings which will 
inform the Committee's efforts as we try to pass the 
reauthorization of the Higher Education Act. Over the last 
three months we have heard nearly 20 hours of testimony from 
experts, educators, students on how to solve the most urgent 
challenges in our education.
    There are several things that we heard that the Federal 
Government must invest in making college more affordable, 
student loans easier to pay off, that the Department of 
Education, state authorizations, and accreditors must do a 
better job at ensuring that only quality programs receive 
Federal funds and tax payers dollars.
    Especially vital for those entities to hold sectors who 
consist--who which with consistently low student outcomes to 
additional oversight.
    We have to provide students with the support they need to 
complete their education and not just enroll in college. We 
must invest in chronically underfunded institutions that 
educate our most underserved communities.
    And finally our hearing today showed that while scaling 
innovative practices can expand access to higher education for 
underserved students, innovation cannot come at the expense of 
quality and equity.
    With these principals in mind I look forward to working 
with our colleagues in the coming months to introduce in 
advance a comprehensive overhaul of the Higher Education Act 
and invest in communities, families and students.
    And finally I want to thank Ranking Member Foxx and her 
dedicated staff for engaging in this process. Working across 
the aisle is not always easy and we have had our policy 
differences from time to time. Yet because of this bipartisan 
process, each member has had the opportunity to examine 
research and evidence and have open conversations about needed 
reforms in higher education.
    These conversations will be critical and passing a 
comprehensive Higher Education Act reauthorization that 
provides every American the opportunity to earn a quality 
college degree.
    Is there any further business to come before the Committee? 
If not, Committee stands adjourned.
    [Additional submission by Ms. Lee follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    [Whereupon, at 1:40 p.m., the committee was adjourned.]

                          [all]
</pre></body></html>
